<html>
<title> - FIGHTING FOR INTERNET FREEDOM: DUBAI AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            FIGHTING FOR INTERNET FREEDOM: DUBAI AND BEYOND

=======================================================================

                             JOINT HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                                AND THE

    SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE; AND THE 

    SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH, GLOBAL HUMAN RIGHTS, AND 

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS


                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 5, 2013

                               __________

                            Serial No. 113-2

                   (Committee on Energy and Commerce)

                           Serial No. 113-18

                     (Committee on Foreign Affairs)

                               __________

  Printed for the use of the Committee on Energy and Commerce and the 
                      Committee on Foreign Affairs

http://energycommerce.house.gov and http://www.foreignaffairs.house.gov





                  U.S. GOVERNMENT PRINTING OFFICE
79-530                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky                  Islands
PETE OLSON, Texas                    KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
CORY GARDNER, Colorado               JERRY McNERNEY, California
MIKE POMPEO, Kansas                  BRUCE L. BRALEY, Iowa
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
LEE TERRY, Nebraska                  MICHAEL F. DOYLE, Pennsylvania
MIKE ROGERS, Michigan                DORIS O. MATSUI, California
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
STEVE SCALISE, Louisiana             PETER WELCH, Vermont
LEONARD LANCE, New Jersey            BEN RAY LUJAN, New Mexico
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan
CORY GARDNER, Colorado               FRANK PALLONE, Jr., New Jersey
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             DIANA DeGETTE, Colorado
BILLY LONG, Missouri                 JIM MATHESON, Utah
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio
                                 ------                                

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     2
    Prepared statement...........................................     7
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Christopher H. Smith, a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
Hon. Karen Bass, a Representative in Congress from the State of 
  California, opening statement..................................    10
Hon. Ted Poe, a Representative in Congress from the State of 
  Texas, opening statement.......................................    11
Hon. Brad Sherman, a Representative in Congress from the State of 
  California, opening statement..................................    12
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    13
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    14
Hon. Edward R. Royce, a Representative in Congress from the State 
  of California, opening statement...............................    15

                                Witness

Robert M. McDowell, Commissioner, Federal Communications 
  Commission.....................................................
    Prepared statement...........................................    16
    Answers to submitted questions...............................   111
Bitange Ndemo, Permanent Secretary, Ministry of Information and 
  Communications, Republic of Kenya..............................    45
    Prepared statement...........................................    47
    Answers to submitted questions...............................   116
David A. Gross, Former U.S. Coordinator for International 
  Communications and Information Policy, U.S. Department of State    52
    Prepared statement...........................................    54
    Answers to submitted questions...............................   121
Sally Shipman Wentworth, Senior Manager, Public Policy, Internet 
  Society........................................................    58
    Prepared statement...........................................    61
    Answers to submitted questions...............................   125
Harold Feld, Senior Vice President, Public Knowledge.............    67
    Prepared statement...........................................    69
    Answers to submitted questions...............................   129

                           Submitted Material

Discussion draft.................................................     4
Letter of February 5, 2013, from The Internet Association to 
  various subcommittees, submitted by Mr. Walden.................   102
Letter of February 4, 2013, from the Software & Information 
  Industry Association to the subcommittee, submitted by Ms. 
  Eshoo..........................................................   108


            FIGHTING FOR INTERNET FREEDOM: DUBAI AND BEYOND

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2013

            House of Representatives,      
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
 joint with the Subcommittee on Terrorism, 
               Nonproliferation, and Trade;
    and the Subcommittee on Africa, Global Health, 
            Global Human Rights, and International 
                                     Organizations,
                               Committee on Foreign Affairs
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:35 a.m., 
in room 2123, Rayburn House Office Building, Hon. Greg Walden 
(chairman of the Subcommittee on Communications and Technology) 
presiding.
    Present from the Subcommittee on Communications and 
Technology: Representatives Walden, Latta, Shimkus, Terry, 
Blackburn, Scalise, Lance, Guthrie, Gardner, Kinzinger, Long, 
Ellmers, Barton, Eshoo, Matsui, Welch, Lujan, and Waxman (ex 
officio).
    Present from the Subcommittee on Terrorism, 
Nonproliferation, and Trade: Representatives Poe, Kinzinger, 
Cotton, Cook, Perry, Sherman, Lowenthal, and Vargas.
    Present from the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations: 
Representatives Smith, Marino, Weber, Stockman, Meadows, Bass, 
and Bera.
    Also present: Representative Royce.
    Staff present from the Committee on Energy and Commerce: 
Gary Andres, Staff Director; Ray Baum, Senior Policy Advisor/
Director of Coalitions; Mike Bloomquist, General Counsel; Sean 
Bonyun, Communications Director; Matt Bravo, Professional Staff 
Member; Neil Fried, Chief Counsel, C&T; Debbee Hancock, Press 
Secretary; Sydne Harwick, Staff Assistant; Sean Hayes, Counsel, 
O&I; Andrew Powaleny, Deputy Press Secretary; David Redl, 
Counsel, Telecom; Charlotte Savercool, Executive Assistant/
Legislative Clerk; Tim Torres, Deputy IT Director; Lyn Walker, 
Coordinator, Admin/Human Resources; Jean Woodrow, Director, 
Information Technology; Roger Sherman, Minority Chief Counsel; 
Shawn Chang, Minority Senior Counsel; Margaret McCarthy, 
Minority Professional Staff Member; Patrick Donovan, Minority 
FCC Detail; and Kara Van Stralen, Minority Special Assistant.
    Staff present from the Committee on Foreign Affairs: Don 
MacDonald, Professional Staff Member, Subcommittee on 
Terrorism, Nonproliferation, and Trade; and Eric Williams, 
Professional Staff Member, Subcommittee on Africa, Global 
Health, Global Human Rights, and International Organizations.
    Additional staff members present: Doug Seay, Senior 
Professional Staff Member, House Committee on Foreign Affairs; 
Gregory Simpkins, Professional Staff Member, Subcommittee on 
Africa, Global Health, Global Human Rights, and International 
Organizations, House Committee on Foreign Affairs; Luke Murry, 
Staff Director, Subcommittee on Terrorism, Nonproliferation and 
Trade, House Committee on Foreign Affairs; and Mark Kearney, 
Staff Associate, Subcommittee on Africa, Global Health, Global 
Human Rights, and International Organizations, House Committee 
on Foreign Affairs.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I am going to call to order the Subcommittee on 
Communications and Technology for a hearing on ``Fighting for 
Internet Freedom: Dubai and Beyond.''
    Before I give my opening remarks, I would just like to 
thank both Chairman Upton and Chairman Ed Royce of the Foreign 
Affairs Committee for their work in pulling together the 
largest group of subcommittees that have held a hearing here in 
a very long time between the Foreign Affairs Committee and the 
Energy and Commerce Committee.
    Because this is sort of a different lay of the land, if you 
will, I am going to go through the procedures here and how we 
are going to go back and forth on opening statements so no one 
is surprised. I will start, and then my colleague, Ms. Eshoo, 
will follow. We each have 4 minutes. And then Chairman Smith 
and Ranking Member Bass will each have 3; Chairman Poe and 
Ranking Member Sherman will each have 3; Chairman Upton and 
Ranking Member Waxman will each have 3 minutes; and then 
Chairman Royce and Ranking Member Engel will each have 3 
minutes. So that is the order we will follow so that everybody 
knows.
    And, again, I want to thank our colleagues on the Foreign 
Affairs Committee for your interest and participation with us, 
and we with you, on this issue.
    As we begin this subcommittee's first hearing in the 113th 
Congress, I want to welcome back our returning members and 
recognize some new members who have joined our subcommittee. 
Leonard Lance, Cory Gardner, Mike Pompeo, Billy Long, Renee 
Ellmers, Bruce Braley, Peter Welch, Ben Ray Lujan, and Jim 
Matheson are all on our subcommittee.
    I would also like to recognize our returning member, Anna 
Eshoo, who will continue as our ranking member on the 
subcommittee. And the subcommittee's new vice chair is Bob 
Latta. So we look forward to working together on 
telecommunications policy going forward, as we did in the last 
Congress.
    I also want to welcome again our friends from the Foreign 
Affairs Committee, Chairman Ed Royce, Subcommittee Chairmen Ted 
Poe and Chris Smith, and all the other members from Foreign 
Affairs Committee for joining us today on a matter of great 
importance, and that is preserving a global Internet free from 
government control.
    And I want to express my appreciation to Dr. Bitange Ndemo, 
who is joining us from Nairobi, Kenya. He is the Permanent 
Secretary of Information and Communications from Kenya. He has 
agreed to participate via this marvelous thing we now call the 
Internet, which made it a lot easier for him to participate 
than trying to work out a way to have him here in person. So we 
are using technology to accomplish something pretty important 
today.
    Governments' traditional hands-off approach has enabled the 
Internet to grow at an astonishing pace and become perhaps the 
most powerful engine of social and economic freedom and job 
creation our world has ever known. Under the current 
multistakeholder governance model, nonregulatory institutions 
manage and operate the Internet by developing best practices 
with public- and private-sector input.
    This is not to say the Internet operates outside the law. 
To be sure, illegal activity should be no less illegal simply 
because someone has used digital tools rather than ones of 
brick and mortar. But the structure of the Internet and the 
content and applications it carries are organized from the 
ground up, not handed down by governments. This allows the 
Internet to evolve quickly to meet the diverse needs of users 
around the world and to keep government or nongovernmental 
actors from controlling the design of the network or the 
content it carries.
    Yet, at the World Conference on International 
Telecommunications, affectionately known as WCIT, in Dubai last 
December, billed as a routine review of an international treaty 
on traditional phone service, a number of nations sought to 
subject the Internet to international regulation. While 
disguised in language about broadband deployment, 
interconnection of networks, management of spam, cybersecurity, 
and access to telecommunications, at bottom the proposals could 
be used to justify economic regulation of the Internet and even 
government censorship.
    This development was not unanticipated, which is why we 
called the hearing last May in advance of the Dubai conference 
and why the subcommittee moved a resolution advocating 
adherence to the multistakeholder governance model. By the end 
of the year, both the House and Senate unanimously passed the 
resolution, with only minor changes, expressing the sense of 
the Congress the U.S. delegation should oppose international 
efforts to control the Internet.
    Buttressed by this resolution and facing a treaty that 
subjected the Internet to international regulation, even though 
conference organizers had promised Internet issues were not 
going to be on the agenda, the U.S. delegation and 54 other 
nations refused to sign. Unfortunately, 89 nations did sign the 
treaty, and this is likely the start, not the end, of efforts 
to drag the Internet within the purview of the international 
regulatory bodies. That is why this hearing will examine not 
only the implications of Dubai but also draft legislation 
turning last year's resolution into the law of the land, 
officially making it the policy of the United States to promote 
a global Internet free from government control.
    [The discussion draft follows:]
    [GRAPHIC] [TIFF OMITTED] T9530.001
    
    [GRAPHIC] [TIFF OMITTED] T9530.002
    
    [GRAPHIC] [TIFF OMITTED] T9530.003
    
    Mr. Walden. How can we use this legislation to further 
strengthen our Nation's resolve? What impact will the Dubai 
treaty have both on citizens of signatory nations and in 
countries that stood firm? What can we do to strengthen the 
multistakeholder governance model and its support across the 
globe? These are just some of the questions that we will 
explore from our panel of terrific witnesses today.
    With that, I will now turn over to Ms. Eshoo for an opening 
statement of 4 minutes.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    As we begin this subcommittee's first hearing in the 113th 
Congress, I want to welcome back our returning members and 
recognize our new colleagues: Leonard Lance, Cory Gardner, Mike 
Pompeo, Billy Long, Renee Ellmers, Bruce Braley, Peter Welch, 
Ben Ray Lujan, and Jim Matheson. I'd also like to recognize our 
returning Ranking Member Anna Eshoo and the subcommittee's new 
Vice Chair, Bob Latta. I look forward to working with all of 
you.
    I also want to welcome our friends from the Foreign Affairs 
Committee, Chairman Ed Royce and Subcommittee Chairmen Ted Poe 
and Chris Smith and all the other members from Foreign Affairs 
Committee for joining us today on a matter of great importance: 
preserving a global Internet free from government control. And 
I want to express my appreciation to Dr. Bitange Ndemo, 
Permanent Secretary of Information and Communications for 
Kenya, for agreeing to participate by Internet stream today, 
which we thought was particularly fitting.
    Governments' traditional hands-off approach has enabled the 
Internet to grow at an astonishing pace and become perhaps the 
most powerful engine of social and economic freedom and job 
creation our world has ever known. Under the current multi-
stakeholder governance model, non-regulatory institutions 
manage and operate the Internet by developing best practices 
with public and private sector input.
    This is not to say that the Internet operates outside the 
law. To be sure, illegal activity should be no less illegal 
simply because someone has used digital tools rather than ones 
of brick and mortar. But the structure of the Internet and the 
content and applications it carries are organized from the 
ground up, not handed down by governments. This allows the 
Internet to evolve quickly, to meet the diverse needs of users 
around the world, and to keep governmental or non- governmental 
actors from controlling the design of the network or the 
content it carries.
    Yet at the World Conference on International 
Telecommunications (WCIT) in Dubai last December, billed as a 
routine review of an international treaty on traditional phone 
service, a number of nations sought to subject the Internet to 
international regulation. While disguised in language about 
broadband deployment, interconnection of networks, management 
of "spam," cybersecurity, and access to telecommunications, at 
bottom the proposals could be used to justify economic 
regulation of the Internet and even government censorship.
    This development was not unanticipated. Which is why I 
called a hearing last May in advance of the Dubai conference 
and why the subcommittee moved a resolution advocating 
adherence to the multistakeholder governance model. By the end 
of the year, both the House and Senate had unanimously passed 
the resolution, with only minor changes, expressing the sense 
of Congress that the U.S delegation should oppose international 
efforts to control the Internet.
    Buttressed by this resolution, and facing a treaty that 
subjected the Internet to international regulation even though 
conference organizers had promised Internet issues were not on 
the agenda, the U.S delegation and 54 other nations refused to 
sign. Unfortunately, eighty-nine nations did sign the treaty 
and this is likely the start, not the end, of efforts to drag 
the Internet within the purview of international regulatory 
bodies. That's why this hearing will examine not only the 
implications of Dubai, but also draft legislation turning last 
year's resolution into the law of the land, officially making 
it the policy of the United States to promote a global Internet 
free from government control.
    How can we use this legislation to further strengthen our 
nation's resolve? What impact will the Dubai treaty have, both 
on citizens of signatory nations and in countries that stood 
firm? What can we do to strengthen the multi-stakeholder 
governance model and its support across the globe? These are 
some of the questions we will explore today.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman.
    And along with you, I want to welcome the members of the 
Foreign Relations Committee that are with us today. A welcome 
to all the new members of our committee, the returning members 
of our committee. We look forward to working together in this 
new Congress.
    Less than 2 months ago, the World Conference on 
International Telecommunications, WCIT, concluded in Dubai. 
Despite bipartisan agreement across our government, it is 
increasingly clear we have a lot of work ahead of us, 
particularly among nations who do not share our vision for 
maintaining the free flow of information across the Internet. 
It is certainly a hallmark of democracy, and we want to keep it 
that way.
    Through the leadership of Ambassador Kramer, the U.S. 
delegation presented a united front of 110 representatives from 
our government, from industry, and from civil society. Equally 
important, a well-coordinated approach that advocated the 
importance of Internet freedom, liberalized markets, and the 
multistakeholder approach to Internet governance ensured that 
the U.S. was able to build a coalition of countries, 54 in 
total, who opposed an expansion of the international 
telecommunications regulations.
    Now, going forward, we have to have a strategy for engaging 
developing countries. The U.S. shares many of the same goals, 
including expanding broadband deployment and adoption, ensuring 
the security of communications networks, and protecting 
intellectual property. Each of these goals can be addressed 
through the existing multistakeholder model for Internet 
governance, but we have to convince others of that.
    I am pleased the chairman has proposed bipartisan 
legislation affirming a U.S. policy position that defends the 
successful multistakeholder process and ensures the Internet 
remains free from government control.
    I thank each of our witnesses for being here today. And I 
look forward to your important perspectives on how to ensure 
the Internet remains open and a success story for generations 
to come, not only for Americans, but for people around the 
world.
    And, with that, Mr. Chairman, I would like to yield the 
balance of my time to Congresswoman Matsui.
    Ms. Matsui. I thank the ranking member for yielding me 
time. And I would like to welcome our witnesses here today.
    In today's global economy, with over 2.3 billion users, the 
Internet has become a necessity and certainly not a luxury. 
That is why I was deeply troubled by the decision in Dubai 
regarding government control over the Internet.
    I believe the U.S. delegation worked diligently in Dubai to 
craft a deal that protects a free and open Internet. One of the 
positives that came out of Dubai was recognition by most of the 
developed world to protect the current multistakeholder 
approach, which has allowed the Internet to flourish. 
Ultimately, however, the administration made the right decision 
by refusing to support a bad policy.
    I believe the status quo of a free, transparent, and open 
Internet must continue. We need to continue to promote 
innovation and openness of the Internet around the globe.
    I yield back the balance of my time.
    Ms. Eshoo. Are there any Members on our side that would 
like to take the 20 seconds that are left? Seventeen, 16--I 
think we yield back, Mr. Chairman. Thank you.
    Mr. Walden. I thank the gentlelady.
    I now recognize Chairman Smith from the Foreign Relations 
Committee.

       OPENING STATEMENT OF HON. CHRISTOPHER H. SMITH, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
your leadership on this very important issue.
    Internet freedom is an issue of vital concern, as we all 
know, to an ever-growing number of people around the world. In 
a little more than 2 decades, the Internet has opened a vast 
storehouse of information to many, but not everyone, with 
computer access. It has allowed people to communicate easily 
and immediately over vast distances and changed the way 
products and services are marketed. Most important, the 
Internet can be used to promote the spread of democracy and 
respect for fundamental human rights. Yet it can also be used 
by repressive governments to censor and surveil.
    Currently, the Internet is regulated, as we all know, under 
a multistakeholder system in which both agencies and private 
organizations, mostly American, play various roles. Russia and 
China and a host of other nations with poor human rights 
records have objected to this multistakeholder system and 
American influence.
    Some of these countries objecting to the current system 
have refused to recognize that fundamental freedoms, such as 
freedom of speech and freedom of the media, apply to the 
Internet, just as they apply to all other modes of 
communication. In fact, Russia has blocked passage of a simple 
statement to that effect in the Organization for Security and 
Cooperation in Europe.
    In December of last year, Russia, China, and 87 other 
countries signed a treaty at the world conference of the ITU in 
Dubai. The treaty touches on vital issues of Internet 
governance in ways our country objected to, and I am glad we 
did. And, in fact, the United States and 54 other countries 
refused to sign.
    While many of the issues that the treaty deals with are 
technical and do not directly concern freedom from censorship 
and surveillance, and while many of the countries supporting 
the treaty are themselves not repressive, it is clear that 
many, as well, are repressive governments and have another 
agenda in the treaty. It is not to promote Internet freedom but 
to bring the Internet under international controls in ways that 
will, over the long term, legitimize their own repressive 
practices.
    Yesterday, I reintroduced the Global Online Freedom Act, 
H.R. 491. This bill is a response not to the treaty directly, 
signed in Dubai in December, but to a larger and more general 
problem that drives many of our concerns about the Dubai 
treaty: the growing use of the Internet as a tool of 
repression.
    The new Global Online Freedom Act updates legislation I 
introduced in 2006, as well as in 2008, which advanced through 
three House committees. The new GOFA requires the State 
Department to beef up its practices on Internet freedom in the 
annual country reports on human rights practices and to 
identify by name Internet-restricting countries.
    It requires Internet companies listed on U.S. stock 
exchanges to disclose to the Securities and Exchange Commission 
how they conduct their human rights due diligence, including 
with regard to the collection and sharing of personally 
identifiable information with repressive countries, and the 
steps that they take to notify users when they remove content 
or block access to content.
    Finally, in response to many reports that we have all seen 
in the papers recently of U.S. technology being used to track 
down or conduct surveillance of human rights and democracy 
activists through the Internet or mobile devices, this bill 
will prohibit the export of hardware or software that could be 
used for potentially illicit activities such as surveillance, 
tracking, and blocking by the governments of Internet-
restricting countries.
    I thank you again, Mr. Chairman, for calling this very 
important hearing, and I look forward to the statements of our 
distinguished witnesses.
    Mr. Walden. I thank the chairman and now recognize the 
ranking member of the Subcommittee on Africa, Global Health, 
Global Human Rights, and International Organizations, Ms. Bass, 
for 4 minutes. Thank you.

   OPENING STATEMENT OF HON. KAREN BASS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Bass. Thank you, Mr. Chairman, Ranking Member Eshoo, 
and my colleagues on the participating subcommittees. Thank you 
for your leadership on this issue and moving swiftly to hold a 
hearing on one of the most important innovations of our day.
    I want to also express my appreciation to today's 
witnesses, who bring depth and expertise on the issues before 
us.
    Let me echo the sentiment expressed that the Internet for 
many of the world's people is an essential part of daily life. 
And while billions of people still have little to no access, 
the way in which it is governed globally is important to all of 
us. The recent deliberations in Dubai make clear that the 
international community, from government to business to diverse 
civil societies, all have a stake and role to play in the 
future of the Internet.
    One key challenge, though, before us is how the Internet 
will be governed globally. Our current system relies on a 
decentralized, multistakeholder approach that has allowed 
innovation and expansion on a global scale. Proposed changes to 
the system could very well jeopardize this progress and hinder 
what has been a truly remarkable collaboration of diverse 
sectors.
    The Internet represents an extraordinary and remarkable 
tool to convene individuals and communities, and provides a 
vehicle for expression. Today's hearing reminds us what is at 
stake if ground is lost to governments that seek to undermine a 
people's ability to freely express their opinions and to voice 
those opinions without fear of harassment, retribution, or 
sentiment.
    And while it is important to support open access to the 
Internet as a democratic tool, we must also be aware of the new 
challenges posed by the Internet. Chairman Chris Smith and I 
share a deep commitment to combating human trafficking. A 
recent research study by the University of Southern California 
documents the pervasive use of online classified ads and social 
networking sites to sexually exploit youth throughout the 
world. I look forward to working alongside my congressional 
colleagues and the expert witnesses here today to promote an 
open and free Internet, while working to stop Internet-
facilitated human trafficking, child pornography, and other 
exploitation online.
    It is my sincere hope that our government will continue to 
provide global leadership and partnership with other nations 
that strengthen the Internet as we know it.
    Thank you, and I yield back the balance of my time.
    Mr. Walden. I thank the gentlelady for her opening 
statement and now turn to the chairman of the Subcommittee on 
Terrorism, Nonproliferation, and Trade, Chairman Poe, for 3 
minutes.

OPENING STATEMENT OF HON. TED POE, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Poe. Thank you, Mr. Chairman.
    The idea that the U.N. ought to be controlling the 
Internet, to me, is like putting the Taliban in charge of 
women's rights. It doesn't make any sense at all.
    Oppressive countries want the United Nations to control the 
Internet. They want to control the content; they want to 
control the operations of the Internet. And they are led by 
none other than our fellow countries, Putin's Russia and our 
good buddies, the Chinese. They want to use the U.N. as a 
shield to protect against the threat of free speech, and they 
want to use it as a spear, a weapon against democratic 
opposition.
    This is a threat to liberty, American liberty, free speech, 
human rights, economic freedom, competence, and innovation. It 
does hurt the developing world. The best thing for developing 
countries is an unfiltered Internet. We should consider the 
consequences for countries who want to, as my friend Mr. Smith 
has said, want to limit free speech through the Internet. We 
must remember that the United States does give several of these 
countries aid, and we should reexamine that if need be.
    In November of 2014, the ITU's constitution will be 
written. We know what the U.N. is like. We don't need them 
governing the Internet. Some say what happened in Dubai could 
have been worse. That is like saying, you weren't hung, but you 
were drawn and quartered.
    I am glad that we are having this hearing, and I thank the 
chairman for leading in this effort to find out exactly what 
the motivations are of these countries that want U.N. control 
of speech.
    I yield back.
    Mr. Walden. I thank the gentleman and now turn to the 
ranking member of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, Mr. Sherman, for 3 minutes.

  OPENING STATEMENT OF HON. BRAD SHERMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Sherman. I want to thank Chairman Walden and Ranking 
Member Eshoo for cutting across the jurisdiction of three 
subcommittees to put together these important hearings.
    As others have stated, we have to keep the Internet free, 
particularly from those who would try to regulate its content. 
And, therefore, we were correct, even though we were in the 
minority, when the International Telecommunications Union 
sought through one of its ITU's core agreements, the 
International Telecommunications Regulations, to begin the 
process of governmental, multinational regulation of the 
Internet.
    But we are in the minority. The ITU is an important 
organization. The Dubai round came up with a 30-page document, 
short by diplomatic standards, only 2 pages of which seem to be 
objectionable. So at issue for us is: How do we participate in 
the ITU in the future, knowing that we can never support this 
attempt to regulate the Internet?
    The ITU was created in 1865, when its focus was the 
telegraph. It is part of the U.N. family of organizations. It 
has been an important forum for international 
telecommunications and has played a significant and useful role 
with regard to global telegraph and telephone service.
    Prior to Dubai, the telecommunications regulatory treaty 
had not been updated since 1988, and so, not surprisingly, it 
did not deal with the Internet. We need to preserve the 
Internet's multistakeholder organization and governance and not 
allow governments, particularly those bent on censorship, to 
gain control.
    Therefore, the United States was correct in not signing the 
agreement, but the question is: How do we participate in the 
ITU in the future? Can we work toward a bifurcation of the 
Dubai treaty, such that we can agree to a 28-page treaty while 
refusing to sign 2 pages? How dangerous would it be for us, and 
is it a viable course, to sign the 30 pages but with 
reservations? Would those reservations be sufficient, or is it 
more important that we make it clear that we will not sign any 
document, even with reservations, that has those two pages in 
it? Or do we want to learn from First Lady Nancy Reagan and 
just say no to this agreement, knowing that that puts us in the 
minority at the ITU?
    So I want to hear from the witnesses what tactics we should 
employ. I want to commend the State Department not only for not 
going along with the majority, which is so easy, but instead 
not only making a stand but organizing a stand that had a very 
substantial minority of ITU members refusing to sign this 
treaty.
    And I look forward to hearing from the witnesses how the 
State Department can reach out to the publics of other nations, 
particularly in Latin America. Because while a majority of the 
world's governments may be in favor of ITU regulation of the 
Internet, a majority of the world's people, I believe, are not.
    So I look forward to hearing from our panel, and I thank 
you for putting together these hearings.
    Mr. Walden. I thank the gentleman for his opening 
statement.
    The vice chair of the full committee, Ms. Blackburn, is 
recognized next.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    I want to welcome all our witnesses.
    Secretary Ndemo, I am just thrilled that you are able to 
join us. And we are so pleased that the wonders of the Internet 
allow us to bring you in and have you present for this hearing 
today.
    I think that we are, each and every one, concerned about 
what we saw transpire in Dubai. Our goal is to make certain 
that we do have a free and open Internet, not only here in the 
United States but globally. And when we see the overreach, we 
realize that that is impeding on our freedoms.
    So we are pleased that the U.S. left the Dubai conference 
just in time, and we want to make certain that we do not put 
ourselves in those situations again.
    Mr. Chairman, I want to at this point yield 1 minute to the 
gentleman from Texas, Mr. Barton.
    Mr. Barton. Thank you.
    I, too, want to welcome our witnesses. I want to welcome 
the Foreign Relations Committee, its distinguished chairman, 
for being here.
    I am just going to say I double down on what Mr. Poe said. 
This is the committee that when the Internet first got started, 
the Energy and Commerce Committee, a Congressman from 
California, Chris Cox, who later became chairman of the FCC, 
offered the amendment that passed that we would have no 
regulation of the Internet here in the United States and no 
taxation. The only way to make freedom totally free is to keep 
it free. And in the world today, that is to keep the Internet 
free.
    So I want to echo what I think everybody has said in some 
shape, form, or fashion: For the United States to sign this 
treaty would be absolute absurdity. And I hope that common 
sense prevails and we don't do that.
    And I yield back.
    Mrs. Blackburn. And at this time I want to yield 1 minute 
to the gentleman from Ohio, Mr. Latta.
    Mr. Latta. I thank the lady for yielding.
    And, Mr. Chairman and Chairman Poe and Chairman Smith, I 
thank you for holding this hearing on the critical topic of 
Internet freedom.
    And I thank the distinguished panel of witnesses for 
testifying today.
    A global Internet free from government control is in the 
best interests of all Americans, as many of you have heard 
already from the other members of these committees. In every 
global city, it has revolutionized the world economy, 
communications, and the cause of freedom.
    However, the Internet will only continue to thrive if 
governments refrain from regulating it and if it can remain 
under a multistakeholder governance model. Developments in the 
World Conference on International Telecommunications last 
December in Dubai were troubling and a reminder that the United 
States must stand steadfast in its defense of Internet freedom.
    I look forward to hearing from our witnesses today on the 
subject, and I yield back the balance of my time to the lady. 
Thank you.
    Mrs. Blackburn. And I yield back.
    Mr. Walden. The gentlelady yields back the balance of her 
time.
    The chairman now recognizes the ranking member of the full 
Energy and Commerce Committee, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman and Chairman Walden. I 
appreciate your holding this joint hearing on the outcomes of 
the World Conference on International Telecommunications which 
took place last December in Dubai.
    First and foremost, I want to commend the tireless work of 
our talented U.S. delegation, led by Ambassadors Phil Verveer 
and Terry Kramer, including the invaluable contributions made 
by staff at NTIA and the FCC under the directions of Assistant 
Secretary Larry Strickling and Chairman Genachowski.
    We are all disappointed that the WCIT produced a treaty 
that seeks an expansion of governmental control into Internet 
governance instead of recognizing the success of the existing 
multistakeholder approach. But we must also recognize our U.S. 
delegation for the positive aspects of the treaty on which we 
were able to reach consensus with other member states. That 
work and dialogue with other nations must continue.
    I am pleased that Congress, through bipartisan efforts 
initiated in the Subcommittee on Communications and Technology, 
was able to pass a unanimous resolution last year reaffirming 
our commitment to the multistakeholder model of Internet 
governance and a global, open Internet.
    We stood shoulder-to-shoulder in support of the 
Administration because we agree that regardless of our domestic 
disagreements on the best ways to achieve our shared vision of 
Internet openness, these differences stop at the water's edge.
    Today we will examine the path forward to build upon and 
strengthen the coalition of countries that stood together in 
Dubai. We need to work in close coordination with our allies to 
ensure the Internet remains a tool for the global dissemination 
of ideas, information, and commerce.
    I look forward to hearing from our expert panel of 
witnesses.
    And unless any Members on the Democratic side wish me to 
yield the balance of my time, I will yield back that time.
    Mr. Walden. I thank the gentleman and now recognize the 
distinguished chairman of the Foreign Affairs Committee, Mr. 
Royce, for opening comments.

OPENING STATEMENT OF HON. EDWARD R. ROYCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Royce. Thank you, Mr. Chairman.
    I think one of the great advantages in our Bill of Rights 
enumerated in our Constitution is the commitment to freedom of 
speech. I think it is one of the things that really unites 
Democrats and Republicans, one of the many things that unite us 
in the West, frankly. But it is something on which 
authoritarian regimes certainly have a very different take.
    I want to thank our witnesses for being here with us this 
morning in order to testify on this subject. Because I think 
that we in the West are pretty well accustomed to threats from 
brutal dictatorships that come head-on, but danger can also 
come from some pretty obscure corners. The latest is the push 
by foreign governments to use the International 
Telecommunication Union to regulate the ability through the 
Internet to really exercise free speech.
    I think government regulation of the Internet really had 
its first big success last December at the ITU conference. I 
wish we had been more effective in working earlier to head this 
off. But the fact that the strong objections of the United 
States and its allies were simply pushed aside by a majority 
vote--a majority vote, frankly, that was led by Russia, led by 
China--is a loud and clear warning of what lies ahead.
    Some might wonder why this kind of regulation by the ITU 
should be a concern. You hear the argument, well, this U.N. 
agency has been around for decades, it has worked to set 
technical standards. But I think the problem here is threefold. 
First, the ITU has never had any role in regulating the 
Internet and has no business doing so today. Second, the 
countries behind the proposal want to use the ITU to help them 
control the Internet in their countries. And, third and most 
important, the creativity and innovation of the Internet can 
flourish only in an environment free from intrusive government 
regulation.
    As bad as it was, the step taken at the ITU conference in 
December was only the first in a planned series by these 
authoritarian regimes. We know that the original proposal was 
even worse, so we must expect that the same countries will push 
for an even larger agenda in the future.
    So we have our work cut out. I think the struggle here is 
going to be a permanent one. Once those forces have an initial 
victory, those seeking control of the Internet are not going to 
stop. It is too valuable to them as a tool.
    Fortunately, I think we have strength in numbers in the 
West, I think we have strength in our ideas. But I think we 
need a forum, as demonstrated here today, in order to begin 
this discussion so that this discussion plays out abroad as 
well.
    I think Congress has a key role to play, such as last 
year's resolution that passed our House unanimously and our 
Senate unanimously, as well as the proposed legislation that we 
are going to talk about today.
    With this hearing, we shine a spotlight on those who seek 
to do their work behind the scenes and in the shadows. The 
truth of the old saying that the price of liberty is eternal 
vigilance is, I think, being demonstrated here. If we are to 
prevail, we must always remember that we are engaged in a 
battle with very high stakes: the free flow of information and 
commerce, the very bedrock, in fact, of our society. That was 
understood by our Founders. We should keep that in mind today.
    Thank you.
    Mr. Walden. The gentleman yields back the balance of his 
time.
    The chairman now recognizes the gentleman from New York, 
the ranking member, Mr. Engel.
    He is not here. Does anyone on the full committee seek his 
time?
    It does not appear so. OK. Then that wraps up our opening 
statements.
    I ask unanimous consent to insert in the record a letter 
from the Internet Association.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. Ms. Eshoo?
    Ms. Eshoo. Mr. Chairman, I ask unanimous consent to place 
in the record a letter from SIIA, the Software & Information 
Industry Association, on the topic that is the subject of our 
hearing today.
    Mr. Walden. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Eshoo. Thank you.
    Mr. Walden. OK. With that, then, we will turn to our 
distinguished panel of witnesses. And we will start with the 
Honorable Robert McDowell, Commissioner of the Federal 
Communications Commission.
    Commissioner, thank you again for joining us on this topic, 
as you have on several other occasions, and on other topics, 
but we especially welcome your comments today. And please 
proceed.

   STATEMENTS OF THE HON. ROBERT M. MCDOWELL, COMMISSIONER, 
  FEDERAL COMMUNICATIONS COMMISSION; THE HON. BITANGE NDEMO, 
       PERMANENT SECRETARY, MINISTRY OF INFORMATION AND 
  COMMUNICATIONS, REPUBLIC OF KENYA; THE HON. DAVID A. GROSS, 
 FORMER U.S. COORDINATOR FOR INTERNATIONAL COMMUNICATIONS AND 
  INFORMATION POLICY, U.S. DEPARTMENT OF STATE; SALLY SHIPMAN 
WENTWORTH, SENIOR MANAGER, PUBLIC POLICY, INTERNET SOCIETY; AND 
      HAROLD FELD, SENIOR VICE PRESIDENT, PUBLIC KNOWLEDGE

            STATEMENT OF THE HON. ROBERT M. MCDOWELL

    Mr. McDowell. Thank you, Mr. Chairman. And it is terrific 
to be back here again.
    Thank you to all the chairs and all the ranking members and 
all the vice chairs and all the members of the various 
subcommittees. This is a new degree of difficulty for me, 
testifying before three joint committees, so we will see how 
this goes. But it is also a privilege to testify with this 
terrifically distinguished panel here.
    Ladies and gentlemen, the Internet is quite simply under 
assault. As a result, freedom, prosperity, and the potential to 
improve the human condition across the globe are all at risk.
    In my testimony today, I will make five fundamental points. 
First, proponents of multilateral intergovernmental control of 
the Internet are patient and persistent incrementalists who 
will never relent until their ends are achieved.
    Number two, the recently concluded WCIT ended the era of an 
international consensus to keep the intergovernmental hands off 
of the Internet in dramatic fashion, thus radically twisting 
the one-way ratchet of even more government regulation in this 
space.
    Third, those who cherish Internet freedom must immediately 
redouble their efforts to prevent further expansions of 
government control of the Internet as the pivotal 2014 
plenipotentiary meeting of the ITU quickly draws near.
    Fourth, merely saying no to any changes is quite obviously 
a losing proposition. Therefore, we should work to offer 
alternative proposals, such as improving the longstanding and 
highly successful nongovernmental multistakeholder model of 
Internet governance to include those who may feel 
disenfranchised.
    And, finally, last year's bipartisan and unanimous 
congressional resolutions clearly opposing expansions of 
international powers over the Internet reverberated throughout 
the globe and had a positive and constructive effect.
    So, first, it is important to note that as far back as 2003 
and maybe further back than that, during the U.N.'s Summit on 
the Information Society, the U.S. found itself in the lonely 
position of fending off efforts by other countries to exert 
U.N. and other multilateral control over the Internet.
    At that time, due to the highly effective leadership of my 
friend, Ambassador David Gross, and his stellar team at the 
State Department and other agencies and other folks as well, 
champions of Internet freedom were able to avert a wave of 
regulation by enhancing the private-sector multistakeholder 
governance model through the creation of entities such as the 
Internet Governance Forum, the IGF, where all stakeholders, 
including governments, could meet to resolve challenges.
    Nonetheless, countries such as China, Russia, Iran, Saudi 
Arabia, and scores of their allies never gave up their 
regulatory quest. They continued to push the ITU and the U.N. 
itself to regulate both the operations, economics, and content 
of the Net. I have outlined some of these proposals in more 
detail in my written testimony.
    The purpose of the WCIT was to renegotiate an earlier 
treaty from 1988. As such, it became the perfect opportunity 
for proponents of expanded regulation to extend the ITU's reach 
into the Internet's affairs. In fact, in 2011, Vladimir Putin 
summed it up best when he declared that his goal and that of 
his allies was to establish international control of the 
Internet through the ITU. Last December in Dubai, Mr. Putin 
largely achieved his goal.
    To my second point, before the WCIT, ITU leadership made 
three key promises. The first, no votes would be taken at the 
WCIT. The second, a new treaty would be adopted only through 
unanimous consensus. And the third, any new treaty would not 
touch the Internet. All three promises were resoundingly 
broken. As a result of an 89-to-55 vote, the ITU now has 
unprecedented authority over the economics and content of key 
aspects of the Net.
    Although the U.S. was ultimately joined by 54 other 
countries in opposition to the new treaty language, that figure 
is misleading. Many countries, including otherwise close allies 
in Europe, were willing to vote to ensnare the Internet in the 
tangle of intergovernmental control. In short, Internet freedom 
experienced a rude awakening regarding a stark reality: When 
push comes to shove, even countries that purport to cherish 
Internet freedom are willing to surrender.
    Our experience in Dubai is a chilling foreshadow of how 
international Internet regulatory policy could expand at an 
accelerating pace. Many countries, as well as the ITU itself, 
brazenly argued that old treaty texts from 1988 gave the ITU 
broad jurisdiction over the Internet. This is plainly false, 
but if these regulatory expansionists are willing to conjure 
ITU authority where clearly none existed, their imaginations 
will see no limits to the ITU's authority over the Internet's 
affairs under the new treaty language. Their appetite for 
regulatory expansionism is simply insatiable, as they envision 
the omniscience of regulators replacing the billions of daily 
private-sector decisions that allow the Internet to flourish.
    At the same time, worldwide consumer demand is driving 
technological convergence. As a result, companies such as 
Verizon, Google, AT&T, Amazon, Microsoft, Netflix, and many 
others, and many others across the globe, are building across 
borders thousands of miles of fiberoptics to connect 
sophisticated routers that bring voice, video, and data 
services more quickly to consumers tucked into every corner of 
the globe. From an engineering perspective, the technical 
architecture and service offerings of these companies look the 
same. To be blunt, these dynamic new wonders of the early 21st 
century are inches away from being smothered by innovation-
crushing old rules designed for a different time.
    Third, time is of the essence. While we debate what to do 
next, Internet freedom's foes around the globe are working hard 
to exploit yet another treaty negotiation. In 2014, the ITU 
will conduct what is literally a constitutional convention, 
called a plenipotentiary meeting, which will define the ITU's 
mission for years to come. Additionally, the World 
Telecommunications Policy and ICT Forum, which convenes in 
Geneva this May, will focus squarely on Internet governance and 
will shape the 2014 plenipot.
    Accordingly, the highest levels of the U.S. Government must 
make this cause a top priority and recruit allies in civil 
society, the private sector, and diplomatic circles around the 
world. We should start with the President immediately making 
appointments to fill crucial vacancies in our diplomatic ranks.
    Fourth, as I warned a year ago--and I see I am short on 
time--merely saying no to any changes to the multistakeholder 
Internet governance model has recently proven to be a losing 
proposition. Using the IGF as a model, we should immediately 
engage with all countries to encourage a dialogue among all 
interested parties, including governments, civil society, the 
private sector, nonprofits, the ITU, to broaden the 
multistakeholder umbrella.
    Lastly, in my nearly 7 years at the FCC, I have been amazed 
by how closely every government and communications provider on 
the globe studies the latest developments in American 
communications policy. In fact, we can be confident that this 
hearing is streaming live in some countries, such as Kenya--and 
thank you, Kenya--but it is being blocked by government censors 
in other countries.
    Every detail of our actions is scrutinized. And when 
Congress speaks, especially when it speaks with one loud and 
clear voice, as it did last year with the unanimous and 
bipartisan resolutions concerning the WCIT, an uncountable 
number of global policymakers pause to think. Although Internet 
freedom suffered as a result of the WCIT, many even more 
corrosive proposals did not become international law in part 
due to Congress's actions last year.
    In conclusion, finally--and I apologize for going over--I 
ask you in the strongest terms possible to take action and take 
action now. Two years hence, let us not look back at this 
moment and lament how we did not do enough. We have but one 
chance. Let us tell the world now that we will be resolute and 
stand strong for Internet freedom and that all nations should 
join us.
    Thank you, and I look forward to your questions.
    Mr. Walden. Commissioner, thank you very much for your 
strong testimony today.
    [The prepared statement of Mr. McDowell follows:]
    [GRAPHIC] [TIFF OMITTED] T9530.013
    
    [GRAPHIC] [TIFF OMITTED] T9530.014
    
    [GRAPHIC] [TIFF OMITTED] T9530.015
    
    [GRAPHIC] [TIFF OMITTED] T9530.016
    
    [GRAPHIC] [TIFF OMITTED] T9530.017
    
    [GRAPHIC] [TIFF OMITTED] T9530.018
    
    [GRAPHIC] [TIFF OMITTED] T9530.019
    
    [GRAPHIC] [TIFF OMITTED] T9530.020
    
    [GRAPHIC] [TIFF OMITTED] T9530.021
    
    [GRAPHIC] [TIFF OMITTED] T9530.022
    
    [GRAPHIC] [TIFF OMITTED] T9530.023
    
    [GRAPHIC] [TIFF OMITTED] T9530.024
    
    [GRAPHIC] [TIFF OMITTED] T9530.025
    
    [GRAPHIC] [TIFF OMITTED] T9530.026
    
    [GRAPHIC] [TIFF OMITTED] T9530.027
    
    [GRAPHIC] [TIFF OMITTED] T9530.028
    
    [GRAPHIC] [TIFF OMITTED] T9530.029
    
    [GRAPHIC] [TIFF OMITTED] T9530.030
    
    [GRAPHIC] [TIFF OMITTED] T9530.031
    
    [GRAPHIC] [TIFF OMITTED] T9530.032
    
    [GRAPHIC] [TIFF OMITTED] T9530.033
    
    [GRAPHIC] [TIFF OMITTED] T9530.034
    
    [GRAPHIC] [TIFF OMITTED] T9530.035
    
    [GRAPHIC] [TIFF OMITTED] T9530.036
    
    [GRAPHIC] [TIFF OMITTED] T9530.037
    
    Mr. Walden. Our next witness is the Permanent Secretary 
Bitange Ndemo from the Kenyan Ministry of Information and 
Communications. We are pleased that the Permanent Secretary is 
able to join us via the Internet from the U.S. Embassy in 
Nairobi.
    Before we have him speak, I would like to extend special 
thanks to the team at the State Department, both here in 
Washington, D.C., and in Nairobi, for their help in 
coordinating Permanent Secretary Ndemo's testimony. I would 
particularly like to thank the acting head of the International 
Communication and Information Policy Group at the State 
Department, Jack Spilsbury, for his time and efforts.
    With that, we are delighted, Secretary Ndemo, that you 
would take time out of your busy schedule to speak with us 
today.
    I understand that in Nairobi they are, I believe, 8 hours 
ahead of us, so it is already 7:15 in the evening. He is able 
to testify, but another commitment prevents him from being able 
to take our questions later in the hearing. We will obviously 
be able to submit questions to him in writing, but he is not 
able to stay with us.
    But, Secretary, we are delighted that you would join us 
today. We look forward to your comments. Please unmute your 
microphone and share your thoughts with us. And thank you 
again, sir, for joining us.
    I think your microphone is live.
    Mr. Ndemo. Can you hear me?
    Mr. Walden. Yes, I can.

              STATEMENT OF THE HON. BITANGE NDEMO

    Mr. Ndemo. Thank you, Chairman. And I want to take this 
opportunity to thank all the other chairmen, the Congressmen 
and Congresswomen, to thank you for allowing me to make a 
presentation about what happened in Dubai in December.
    In Kenya, prior to our going to Dubai, we had consultations 
in line with our new Constitution, which guarantees freedom of 
information and freedom of speech. And we did not want to go 
against the new Constitution that we have in Kenya. And we 
thank the American Government, through the leadership of 
Ambassador Kramer, Ambassador Verveer, and Ambassador Gross, 
who, through their leadership, we were able to fully understand 
the proceedings in Dubai.
    And I would say here that many of my--of African countries 
were literally coerced into--hello?
    Mr. Walden. You are doing fine. We can hear you just fine.
    Mr. Ndemo. Yes. Many of the countries here were literally 
coerced into signing the treaty. Because after a while, some 
came and said what Kenya did was good because on their own they 
had been working towards a common understanding, until we tried 
to explain that this would go against the achievements that we 
have made.
    Some of you who know what has happened in Kenya, is that we 
have heavily invested in the Internet. We have invested in 
fiberoptic cables, the undersea cables. And because of this 
investment in the Internet, we have begun to see a lot of 
innovation coming out of Kenya. If you know the money transfer, 
what it has done to the poor in this country; if you know some 
of the new applications, like Ushahidi, which have helped 
throughout the country, it is because that freedom has been 
free in this country.
    And we want to continue to have it free. But we want to 
work with the like-minded throughout the world to make sure 
that the 2014 plenipotentiary does not become a nightmare for 
those who believe in freedom of the Internet.
    One thing that we must pay attention is that the Internet 
has given so many people hope, it has given so many people--it 
has empowered so many people to make their governments 
responsive. In Kenya, through Twitter and Facebook, people are 
able to question the government. And you know what has happened 
in most countries in northern Africa.
    So Internet is very key. It is the lifeblood of the 
innovations that we have had in Kenya here. We want to continue 
to support this. We want to work together with the Americans to 
prepare for the Geneva conference, to prepare for the 
plenipotentiary, and hope that the countries that were coerced 
into signing come to our side and support the new initiatives 
that would ensure that the Internet remains free, and help to 
empower the citizens of the world as it has done, and we have 
seen that it has done so.
    That is the only way we can help those countries that are 
in between, trying to figure out whether to support the freedom 
of the Internet. Kenya, for example, has been host to ICANN, to 
IGF, to freedom on the Internet. And we are helping those 
countries that are members of freedom of Internet to be able to 
convene and explain the benefits of the Internet.
    I would stop here, but I would hope we continue to work 
together to ensure that the Internet remains free for the years 
to come. Thank you very much.
    Mr. Walden. Secretary, thank you very much for your 
willingness to testify today from Nairobi and for your strong 
statement in support of a free Internet. We appreciate your 
testimony. We know you may have to depart at some point. But, 
again, thank you, and thanks for your good work and your good 
words.
    [The prepared statement of Mr. Ndemo follows:]
    [GRAPHIC] [TIFF OMITTED] T9530.038
    
    [GRAPHIC] [TIFF OMITTED] T9530.039
    
    [GRAPHIC] [TIFF OMITTED] T9530.040
    
    [GRAPHIC] [TIFF OMITTED] T9530.041
    
    [GRAPHIC] [TIFF OMITTED] T9530.042
    
    Mr. Walden. We will now go to the former U.S. Coordinator 
for International Communications and Information Policy at the 
U.S. Department of State, the Honorable David A. Gross.
    Ambassador, thank you for being with us. Thank you for your 
work on this issue. We look forward to your testimony, as well.

              STATEMENT OF THE HON. DAVID A. GROSS

    Mr. Gross. Thank you very much, Mr. Chairman, chairmen, 
ranking members. I appreciate very much, of course, the 
opportunity to appear once again.
    I also want to thank my fellow panelists here in Washington 
who were also in the U.S. delegation and were terrific members 
of the U.S. delegation.
    But if I may, before the Permanent Secretary leaves, if I 
may, with your permission, say a few words about why it is 
particularly important that he is appearing before you today.
    The Permanent Secretary led the Kenyan delegation to WCIT, 
and he defended the interests of the Kenyan people and the 
Kenyan Government in an extraordinarily effective and forceful 
way. He did not bow to the wishes of other countries, but 
instead defended that which he believed to be correct and I 
believe is clearly correct. That is not an insubstantial 
contribution to the conference.
    His standing to be able to make that is not just because of 
his representing the great country of Kenya, a host, as the 
Permanent Secretary just said, of the Internet Governance Forum 
just about 2 years or so ago, but rather because of his 
personal involvement and the involvement of his team, the 
ministers and others, in Kenya.
    Kenya has transformed itself in regard to the Internet. 
When he took office, Kenya had no Internet access other than 
through very expensive and very slow satellite communications. 
Because of his tireless work and the work of his team, they now 
have four, or some might even claim five, high-capacity 
submarine cables coming into Kenya that is transforming that 
country.
    The cost of the Internet connectivity has gone down; 
latency has improved. As the Permanent Secretary said, it has 
resulted in jobs that have benefited not only the Kenyan people 
but all of us, because what happens in Kenya affects us in so 
many ways. In addition, of course, it has promoted the free 
flow of information, something that the Permanent Secretary 
believes strongly in.
    So I am particularly pleased and proud that he has 
participated in this hearing because he brings a perspective 
that is truly unique and very powerful.
    Now, I have heard and of course have read the testimony of 
my fellow panelists, and I agree that the key message, I think, 
has been that there is much work to be done. We need to learn 
the lessons of the past, including the lessons from WCIT, which 
are very clear, I believe, but it is important for all of us to 
look forward. We need to listen carefully to the technical 
community, to civil society, to the private sector, to other 
countries, and especially those, such as those represented by 
the Permanent Secretary, from the developing world.
    I think, however, as we look at these issues, it is 
important for us to look carefully at the ITU. The ITU is an 
extraordinarily important organization to the United States. 
And, in many respects, if it did not exist, we would have to 
invent it because of its important work in many areas, 
particularly with regard to spectrum-related issues, something 
that is important to all of our economies.
    It is also traditionally an important organization because, 
unlike other parts of the U.N., it is primarily a bottom-up, 
contribution-driven organization. It is not the Secretariat 
that sets the agenda, but rather it is governments. And, 
therefore, as I disagree with many things the ITU does, it is 
not a disagreement with the Secretariat; it is a disagreement 
with member states and their views and their advocacy with 
regard to important issues, particularly those involving the 
Internet.
    Therefore, it is important for us, I believe, to 
differentiate between ITU control of the Internet, something 
that we all believe is an anathema, and the ITU as an effective 
convenor, particularly with regard to our outreach to the 
developing world, in which it can be an effective facilitator.
    I was pleased, in that regard, that the Secretary-General 
just gave a speech just a few days ago in which he said he was 
disappointed that in Dubai to see attempts to derail the 
conference by those who were persuaded that Internet control 
was an issue for discussion. I agree. I, too, not only was 
disappointed, I was very, very unhappy with that outcome. But 
that is the outcome as a result, as many of you have already 
noted, of the issues raised by Russia, China, and others who 
seek to use the ITU for control, not the ITU itself.
    So, in conclusion, it seems to me that the importance is 
for us to continue to advocate strongly, as we did at WCIT. The 
skill of the delegation in its advocacy was strong. We did not, 
as some reports made, we never walked out. We engaged to the 
very end. It is because of that engagement and the skill of our 
chairman, Mohamed Al Ghanim from the UAE, that, in fact, much 
of what is in the agreement is positive from a telecoms 
perspective.
    But, nevertheless, the Internet-related aspects make it an 
unsignable and unacceptable treaty, in my view. That is a 
tremendous disappointment for all of us. But it is, in fact, an 
opportunity for us to redouble our efforts of involvement, 
particularly, as has been noted, with the upcoming 
plenipotentiary in Korea in 2014 and just this upcoming May at 
the World Telecommunications Policy Forum.
    With that, Mr. Chairman, I thank you very much and look 
forward to questions.
    Mr. Walden. Thank you, Ambassador.
    [The prepared statement of Mr. Gross follows:]
    [GRAPHIC] [TIFF OMITTED] T9530.043
    
    [GRAPHIC] [TIFF OMITTED] T9530.044
    
    [GRAPHIC] [TIFF OMITTED] T9530.045
    
    [GRAPHIC] [TIFF OMITTED] T9530.046
    
    Mr. Walden. And I think the Permanent Secretary has to 
leave at some point here.
    So, again, Mr. Secretary, thank you for all your great 
leadership at WCIT and for your country and for testifying 
today.
    We will now turn to Ms. Sally Shipman Wentworth, who is 
senior manager, public policy, Internet Society.
    Ms. Wentworth, thank you for joining us today. We look 
forward to your testimony.

              STATEMENT OF SALLY SHIPMAN WENTWORTH

    Ms. Wentworth. Thank you very much.
    My name is Sally Shipman Wentworth. I am senior manager of 
public policy for the Internet Society. The Internet Society is 
a nonprofit organization dedicated to ensuring the open 
development, evolution, and use of the Internet for the benefit 
of all people throughout the world.
    On behalf of the Internet Society, which is made up of more 
than 65,000 members worldwide and 91 chapters in countries 
around the world, I would sincerely like to thank the leaders 
of the various subcommittees gathered here for the opportunity 
to testify on the current state of global Internet policy and 
the future of Internet freedom.
    I am honored to be on a panel with such distinguished 
colleagues, and in particular, of course, the Honorable 
Permanent Secretary from Kenya. Kenya has made enormous 
strides, as was said, in its Internet development and has truly 
embraced groups like the Internet Society and the technical 
community as it moves forward along its path toward Internet 
development. And we look forward to that partnership 
continuing.
    I had the honor of testifying last May before the 
Subcommittee on Communications and Technology about our 
concerns that the outcome of the WCIT meeting could undermine 
the security, stability, and innovative potential of networks 
worldwide. The Internet Society was a sector member participant 
at the WCIT, not on a national delegation. And when we arrived 
at the conference in Dubai, we quickly determined that our 
concerns were well-founded.
    In the end, the results from WCIT are concerning. The lack 
of consensus among nations and the persistent aims by 
governments to establish Internet policy in a closed, 
intergovernmental context sets the Internet policy dialogue on 
uncertain footing. There is significant ambiguity as to how 
certain treaty provisions will be implemented and whom the 
treaty will ultimately cover. Some governments could use new 
ITR language on spam and security as a justification for 
imposing more restrictions on the Internet and the content it 
carries.
    The treaty also includes a controversial new Internet 
resolution that, in our opinion, shifts the emphasis from 
community and consensus to centralization through government 
action. In some ways, the debate at WCIT revived a longstanding 
concern that the global Internet could give way to a set of 
national Internets, each with its own rules and gatekeepers and 
with higher costs for everyone. From the standpoint of the 
Internet Society, this is an outcome that must be averted.
    Still, while the final text was disappointing, enough so 
that 55 nations, including the U.S., declined to sign it, it 
was not as bad as it could have been, thanks in large part to 
the work of national delegations from the U.S., Canada, 
Australia, the Philippines, Kenya, European Union member 
states, and Internet advocates working tirelessly within dozens 
of national delegations from around the world.
    It is also important to point out that the ITU, in response 
to unprecedented global public interest in the WCIT, took a 
number of steps to make the process in Dubai more transparent. 
The ITU must build on these steps to make its processes more 
open and more meaningfully inclusive in the future.
    In the aftermath of WCIT, we are all faced with 
considerable uncertainty as to what extent the lack of 
consensus will negatively impact global communications networks 
going forward. We suspect that it will.
    What is certain is that the WCIT is one piece of a much 
longer narrative. At the heart of this narrative is a very 
basic question over the role of government in a technology 
space that is fundamentally borderless. This narrative will 
continue through a rigorous schedule of ITU and U.N. meetings 
between now and at least 2014.
    The lesson from WCIT is that supporters of the 
multistakeholder model must engage more, not less, in order to 
demonstrate clearly how this model could respond meaningfully 
to the legitimate Internet public policy questions that many 
governments have.
    Fortunately, there are a number of opportunities for 
positive engagement. The annual Internet Governance Forum and 
the national and regional IGFs that have sprung up around the 
world have proven to be an exemplary model where governments 
can be active in a multistakeholder context without needing to 
control the process or negotiate a formal outcome. We should 
all recognize, however, that the IGF is only possible with 
sustained support and commitment from all of us. We also 
welcome UNESCO's active leadership in advocating for a free and 
open Internet.
    Finally, I should note that there are other critical 
technical and policy organizations around the world that are 
working to make the Internet better for everyone. They also 
deserve our support and active participation.
    In conclusion, I want to leave you with one key message: 
Please continue your support for the multistakeholder model of 
Internet policy development both at home and abroad. The 
importance of sustained U.S. commitment to the principles of 
the global open Internet cannot be overstated. While the impact 
of WCIT will be felt for years to come, we can work together to 
ensure that the Internet continues to transcend political 
divides and serves as an engine for human empowerment 
throughout the world.
    From the Internet Society perspective, the WCIT has not 
shaken our basic confidence that the Internet is fundamentally 
good for the world and that the multistakeholder model of 
policy and technical development is still the most effective 
way to support its growth and innovation.
    So thank you for hosting this important discussion, and the 
Internet Society looks forward to being part of this 
conversation.
    Mr. Walden. Thank you, Ms. Wentworth. We appreciate your 
testimony this morning.
    [The prepared statement of Ms. Wentworth follows:]
    [GRAPHIC] [TIFF OMITTED] T9530.047
    
    [GRAPHIC] [TIFF OMITTED] T9530.048
    
    [GRAPHIC] [TIFF OMITTED] T9530.049
    
    [GRAPHIC] [TIFF OMITTED] T9530.050
    
    [GRAPHIC] [TIFF OMITTED] T9530.051
    
    [GRAPHIC] [TIFF OMITTED] T9530.052
    
    Mr. Walden. Now we will go to our final witness, Mr. Harold 
Feld, who is senior vice president of Public Knowledge.
    Mr. Feld, thank you for joining us today. We look forward 
to your testimony, sir.

                    STATEMENT OF HAROLD FELD

    Mr. Feld. Good morning. Thank you, Chairmen, Ranking 
Members. My name is Harold Feld. I am senior vice president of 
Public Knowledge, a nonprofit dedicated to an open Internet. It 
was also my privilege to participate as an advisory member of 
the U.S. delegation to Dubai.
    I am struck by the broad general agreement among the 
witnesses with regard to the inappropriateness of the ITU as a 
forum for regulating Internet governance and of the very real 
threat to Internet freedom we now face. In particular, I wish 
to voice my agreement with Commissioner McDowell's written 
testimony, that the danger we face is real, and we must respond 
quickly with both engagement and firmness.
    I want especially to applaud and emphasize Commissioner 
McDowell's observation that we must make the multistakeholder 
alternatives to the ITU accessible to developing nations, which 
have traditionally lacked resources to fully participate in 
these forums. This inability to fully participate has created a 
feeling of disenfranchisement and resentment in some quarters, 
which drives many developing countries to see the ITU as a 
counterbalance to what they perceive as dominance of the 
Internet by the United States and the developing world 
generally.
    But there is good news from Dubai, as well. I want to focus 
on our enormous success in engaging with global civil society 
and how building on that success is a key building block to 
winning the global debate now in progress between those who 
agree with an open and transparent multistakeholder approach 
and those who embrace a traditional treaty organization 
dominated by government ministries and conducting most of its 
business behind closed doors.
    As Mr. Sherman said earlier, while the majority of 
governments may at the moment be in favor of a traditional 
treaty approach, as we saw in the lead-up to the WCIT the 
majority of the people of the world are not. The ITU has not 
traditionally been open to participation by civil society. In 
the lead-up to the WICT, protests of global civil society 
forced both the ITU and many member governments to backpedal, 
at least publicly, from the most aggressive proposals. The 
decision of many countries not to sign the ITRs and the 
statements issued by some signing nations limiting the scope of 
ITRs come in no small part from the vigorous efforts of civil 
society organization within these countries.
    In the lead-up to the WCIT, civil society, including Public 
Knowledge, made several efforts to overcome barriers to 
participation. To its credit, ITU's Secretary-General, Dr. 
Hamadoun Toure, and the ITU staff responded to these criticisms 
and sought to engage with us, both before the WCIT and in 
Dubai. The ITU webcast its plenary sessions and the meetings of 
its most important committee, allowing a window into what has, 
until now, been an utterly opaque process.
    In the end, however, civil society were forced to sit on 
the sidelines, unable to access key documents, unable to 
observe, never mind participate, in the actual working sessions 
behind closed doors, and unable to speak with our own voices or 
engage directly with voting delegates.
    The United States played a vital role in supporting and 
encouraging the efforts of global civil society. First, the 
United States walked the walk on civil society by reaching out 
to domestic NGOs, such as Public Knowledge, and including us 
fully in consultation preceding WCIT and as part of the 
delegation. I am pleased to report that I and my colleagues 
from civil society were treated with the same courtesy and 
consideration as our colleagues from industry. We had the same 
access, and our contributions were given the same weight and 
respect. This vastly improved the credibility of the United 
States as a defender of transparency, inclusion, and Internet 
freedom in the ITU process.
    Second, the United States directly engaged with global 
civil society. Ambassador Kramer himself held two personal 
meetings with international NGOs--one prior to the WCIT and one 
at the WCIT itself, meeting for 2 hours with representatives of 
global civil society, including representatives from the 
developing global south, and genuinely engaged with them.
    These civil society organizations were able to take our 
concerns back to their own delegations and to advocate for 
support of our positions on limited ITU jurisdiction, not 
because these organizations agree with U.S. policy generally, 
but because we were successful in persuading them that their 
own aspirations for Internet freedom were equally threatened by 
the expansion of ITU authority and the agenda advanced by 
certain countries trying to extend their online censorship 
regimes.
    Even those countries that ultimately signed the ITRs, who 
began willing to dismiss our concerns and accused us of 
dominating the Internet, needed to at least reconsider their 
positions.
    To conclude, the good news is that the Dubai conference was 
just the beginning of the discussion around the globe on 
Internet governance, not the end. We must build on this 
beginning going forward and on the alliances and relationships 
that we created in Dubai.
    To ensure that civil society and smaller developing 
countries can participate fully, the U.S. State Department and 
Congress should lead by example by creating a fund to support 
the travel and registration of both civil society groups and 
small countries that are unable to afford to participate in 
multistakeholder processes.
    I would add that our industries and industries around the 
globe who depend upon these multistakeholder processes and upon 
coordination through voluntary efforts would likewise be well-
served to contribute to these efforts.
    Thank you to the members of the subcommittees for your 
time, and I look forward to the opportunity to answer your 
questions.
    Mr. Walden. Mr. Feld, thank you for your testimony.
    [The prepared statement of Mr. Feld follows:]
    [GRAPHIC] [TIFF OMITTED] T9530.053
    
    [GRAPHIC] [TIFF OMITTED] T9530.054
    
    [GRAPHIC] [TIFF OMITTED] T9530.055
    
    [GRAPHIC] [TIFF OMITTED] T9530.056
    
    [GRAPHIC] [TIFF OMITTED] T9530.057
    
    [GRAPHIC] [TIFF OMITTED] T9530.058
    
    [GRAPHIC] [TIFF OMITTED] T9530.059
    
    [GRAPHIC] [TIFF OMITTED] T9530.060
    
    [GRAPHIC] [TIFF OMITTED] T9530.061
    
    [GRAPHIC] [TIFF OMITTED] T9530.062
    
    [GRAPHIC] [TIFF OMITTED] T9530.063
    
    [GRAPHIC] [TIFF OMITTED] T9530.064
    
    [GRAPHIC] [TIFF OMITTED] T9530.065
    
    [GRAPHIC] [TIFF OMITTED] T9530.066
    
    [GRAPHIC] [TIFF OMITTED] T9530.067
    
    [GRAPHIC] [TIFF OMITTED] T9530.068
    
    [GRAPHIC] [TIFF OMITTED] T9530.069
    
    [GRAPHIC] [TIFF OMITTED] T9530.070
    
    Mr. Walden. And thanks to all of our witnesses here and 
abroad for your testimony. It helps in our work.
    I will lead off with the first set of questions, and then 
we will alternate back and forth.
    So I have a question for all the witnesses. What impact do 
you think the congressional resolution last year had on 
discussions at WCIT? And do you think the discussion draft we 
are considering today, which takes the language of that 
resolution and makes it the formal policy of the United States, 
might be helpful going forward?
    Mr. Feld?
    Mr. Feld. Thank you.
    I believe, as others have stated and as we stated in our 
testimony, that it was enormously helpful for us to see the 
United States speaking with one voice. What we need is a 
combination of diplomatic engagement and firmness of resolve, 
and I believe that the legislation shows that firmness of 
resolve.
    Mr. Walden. Thank you.
    Ms. Wentworth?
    Ms. Wentworth. Thank you.
    Yes, as an organization that was not on a national 
delegation, I can say that the bipartisan congressional 
resolution and the bipartisan resolve in Congress did help to 
strengthen the U.S. position and the U.S. credibility in the 
negotiating process. And I think the strength of the 
legislation will be extremely helpful in the Internet 
discussions going forward.
    Mr. Walden. Thank you.
    Ambassador Gross?
    Mr. Gross. Thank you very much.
    I can be a fact witness for you, having been told by a 
number of senior representatives from other countries that they 
not only knew of the resolution but took it into account in 
understanding where the U.S. was coming from on our positions. 
So, therefore, from my perspective, there is no doubt it not 
only had an impact, it had a substantial impact on the treaty 
negotiations.
    I would also note that there is now a history of such 
resolutions. There was one also before it, with regard to the 
World Summit on the Information Society back in 2005, that had 
exactly the same impact--very substantial in that U.N.-heads-
of-state negotiation.
    So, clearly, when the committee speaks, when Congress 
speaks, the world listens.
    Mr. Walden. Thank you.
    Commissioner McDowell?
    Mr. McDowell. Well, it is hard to build on all those 
answers, so I will incorporate them by reference. But I can 
also be a fact witness for you. In bilateral negotiations 
between the U.S. Government and other governments, this issue 
came up of our Congress being unified, unanimously unified. And 
I don't mean this as a flippant remark, but that was seen as 
something quite extraordinary abroad, internationally----
    Mr. Walden. And domestically.
    Mr. McDowell [continuing]. And was very powerful.
    Mr. Walden. Good.
    Mr. McDowell. I think it focused the resolve. And I think 
going further, making it the law of the land, would be even 
more powerful. And we should do that sooner rather than later 
to make sure we are prepared for 2014.
    Mr. Walden. Thank you.
    Commissioner, I have a question for you. You were one of 
the first to warn that the WCIT could veer off into Internet 
governance issues, and we appreciate your persistence.
    The international community will gather again in May in 
Geneva for the World Summit on the Information Society Forum 
and the World Telecommunication/Information and Communication 
Technology Policy Forum. What should we be on the alert for 
there?
    Mr. McDowell. WTPF will have squarely in its sights 
Internet governance. I think this will lay the groundwork. 
While it doesn't maybe technically feed into 2014, the 
plenipot, it really does, because a lot of the same 
representatives, the same actual people who will be at the WTPF 
in May will be negotiating the new treaty in 2014 in Korea. But 
this focuses squarely on Internet governance.
    So, yes, the WCIT could have been worse, but it was pretty 
bad. So what the proponents of international regulation did not 
get explicitly in Dubai they will try to get explicitly in 
Korea in 2014. And so this May is the next big opportunity to 
influence that treaty negotiation in 2014.
    Mr. Walden. All right. Thank you.
    Ms. Wentworth, I get the sense that if other nations better 
understood the opportunities available to them to participate 
in the multistakeholder governance model, the less need they 
would see for international regulation and the more likely they 
would be to see the harms.
    Can you share with us some of the steps the Internet 
Society is taking to promote greater global inclusion in 
Internet governance process?
    Ms. Wentworth. Yes, and thank you for that question.
    The Internet Society has long believed that more engagement 
and more participation from all countries in the processes, in 
the multistakeholder processes that make the Internet work is 
the most effective way forward. To that end, the Internet 
Society does a tremendous amount of work at the national level, 
working with countries to help build and sustain technology in-
country and build the capacity of the technical community in 
that country to sustain the technology going forward.
    At the global level, we provide a lot of opportunities, a 
lot of fellowships for developing country participants to 
participate in things like the Internet Engineering Task Force, 
the Internet Governance Forum, the Organization for Economic 
Cooperation and Development, and a host of other meetings where 
we think the more voices that are at the table, the more rich 
and enhanced the dialogue will be. We are committed now more 
than ever to keep that activity going.
    Mr. Walden. Thank you very much.
    My time has expired. I would now recognize the gentlelady 
from California, Ms. Eshoo, for 5 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman.
    And thank you to each of you, our witnesses. I think the 
entire country owes you its gratitude for what you have done. 
And I think that what you have shared with us today and more 
than nailed down is that we have a ways to go, but that the 
action of the Congress--and I know that there were some smiles, 
Commissioner McDowell, when you said that other countries found 
it really rather exceptional that the Congress was united. We 
have to re-appreciate that, that when there wasn't any 
daylight--any daylight between any of us in the Congress, 
bicameral, bipartisan, and in the executive branch, that that 
is a powerful message to people around the world. And it is 
powerful because it is really a restatement of our great values 
of our Nation. This isn't just the innards of something 
technological that has just taken off; this has embedded in it 
the great values of our democracy. And I want to thank you each 
of you for advancing the ball down the field.
    My question to all five of you is: For what lies ahead, 
what do you think the United States should do in working with 
developing nations to help turn them around? What are the 
ingredients?
    We know what has worked, we know what hasn't. We know, 
obviously, the countries that disagree the most with us are far 
more closed societies, they are not as open as we are.
    I hope that there is not contagion of that thinking. And, 
first, I would hope that you can tell us that they didn't gain 
new friends in Dubai and bring people over to their side. But 
what do you think are the most effective strategies for turning 
this around?
    Because we all agree with each other here. And you all 
agree with each other at the table. And I am thrilled that 
civil society and the roles that you played with your 
organization, as well, on the public side are involved in this. 
And these are very, very powerful tools.
    So tell me, how do we keep hope alive here? What is the 
strategy, moving forward? Now that we have come through this, I 
mean, I think we are wiser. So whomever wants to go first.
    Sure.
    Mr. McDowell. Thank you. I think that is an excellent 
point, and I agree with everything you just said.
    I think we need to offer an alternative. There are 
countries, especially in the developing world, who feel left 
out of the multistakeholder model.
    Ms. Eshoo. I heard that. That is why I said ``developing.'' 
Uh-huh.
    Mr. McDowell. And I think we need to broaden the umbrella 
and find new ways for inclusion and sort of modernize that.
    So sometimes these representatives can't afford to fly to 
these far-off meetings. So is there a way to fund that? Is 
there a way to have them participate remotely, as our friend 
from Kenya just did?
    Ms. Eshoo. Now, who would fund it?
    Mr. McDowell. Well, you know----
    Ms. Eshoo. I mean, where would we get that from?
    Mr. McDowell. That could be----
    Ms. Eshoo. Everyone chips in or----
    Mr. McDowell. Everyone chips in. You know, there are ways--
--
    Ms. Eshoo. Our side chips in?
    Mr. McDowell. Yes.
    So, I think we also need to educate them on the facts. We 
need to recruit allies in civil society, as Mr. Feld said----
    Ms. Eshoo. Yes. That is very powerful.
    Mr. McDowell [continuing]. In all these countries. And one 
key fact, for instance, in Africa, 1999, 70 percent of all 
Internet traffic from Africa went to the United States. Today 
it is less than 5 percent.
    So there is the myth out there that the Internet is somehow 
U.S.-dominated. More and more traffic is going to come from 
within these countries and develop their own economies in a 
beautiful way. We need to let them know that that is the beauty 
of it.
    Ms. Eshoo. Thank you. And thank you for the great role you 
have played in this. You rang the bell a long time ago. We are 
grateful to you.
    Mr. Ambassador?
    Thank you.
    Mr. McDowell. Well, thank you very much.
    Ms. Eshoo. Wonderful work.
    Mr. McDowell. You are very kind. Thank you.
    Ms. Eshoo. Important work.
    Mr. Gross. There is no silver bullet here, and we all 
recognize that. At the risk of stating the obvious, what we 
need to do is to continue that which we have been doing: the 
hard work of putting together the evidence, honing our 
arguments, and to making our case.
    Now, having said that, there are many realities that we 
also need to work on. One is we need to think, as we do, about 
what it is we do, how we support organizations. If I may 
suggest, for example, one of the organizations that is near to 
my heart, or one of the processes that is near to my heart, is 
the Internet Governance Forum, created as a result of the World 
Summit back in 2005.
    Ms. Eshoo. Yes.
    Mr. Gross. It was created because the United States said 
that although we did not believe in international control of 
the Internet, we believed it was important to have a dialogue 
with the world on Internet-related issues and that we would 
meet with and talk with anyone anywheres because we thought it 
was that important.
    I am concerned about the future of the Internet Governance 
Forum, in part because of funding issues. It has been kept 
together----
    Ms. Eshoo. Where does the funding come from?
    Mr. Gross. The funding is a very complicated method.
    One is, in theory, because it is a U.N. event, the money 
flows through the U.N., there is a mechanism for donations to 
be made by countries, by regional groups, by civil society, and 
by corporations and others, some of whom are here today, that 
have been very generous in their contributions. But it is 
clearly insufficient to keep it going, at least in the long 
term.
    If our view is that the multistakeholder approach is the 
way it should work, which I believe is true, then it is 
important that at least this, which is probably the most 
significant and well-known of the multistakeholder global 
meetings, needs to be supported and enhanced.
    Obviously, there are many other places and many other 
organizations that do terrific work in this area. I don't want 
to sound like I am picking one out. But this is one where the 
world gathers that is extraordinarily important.
    Ms. Eshoo. Thank you.
    I am more than out of time, and I hope that the other two 
witnesses will, in writing, be instructive to us on the 
question that I posed. Because I think you have a great deal to 
offer, very importantly a great deal to offer, given who and 
what you represent. Thank you.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Mr. Latta [presiding]. Thank you very much.
    And Chairman Smith is now recognized for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Latta. Thank you.
    Mr. Smith. Thank you.
    Commissioner McDowell, you testified that three promises, 
key promises, were made by the ITU leadership: no votes to be 
taken on the WCIT; a new treaty will be adopted only by 
unanimous consensus; and a new treaty would not touch the 
Internet.
    And I am wondering if that promise, if they were 
duplicitous, or did events that they had no part and could not 
control intervene. And did that affect or mal-affect, if you 
will, our strategy?
    I look at the list of countries, the 89, and it is very 
clear that many of those are developing countries. Europe 
pretty much stayed--the European Parliament, as we all know, 
like here in the United States, took a very strong action in 
terms of a resolution. The Europeans pretty much stayed with 
us.
    So my question would be, did that duplicity--were we 
prepared? Were we demarching? Were we doing the work--and, 
Ambassador Gross, you might want to speak to this, as well--
that needed to be done in advance of the Dubai meeting that 
would make the difference in terms of outcome?
    Mr. McDowell. To the second part of your question, I don't 
think it affected U.S. advocacy. I do think, however, that both 
civil society, the private sector, nonprofits, and the U.S. 
Government could have gotten started sooner on working on the 
WCIT. I don't know if that would have changed the ultimate 
outcome, but I don't think reliance on those promises changed 
U.S. strategy.
    On the duplicity aspect of it, I don't know. I can't tell 
people's intentions. You have statements by ITU leadership 
saying one thing, but, as Ambassador Gross pointed out, that it 
is a member-driven organization. So you have the member states 
doing what they were going to do regardless of what ITU 
leadership may or may not have said.
    Mr. Gross. Thank you very much. And it is a great pleasure 
to testify before you again.
    I agree with what the Commissioner said. I think the key 
here is, to some degree, it is not a question of individual 
motives, it is a question of governmental interests. And as we 
have discussed in the past, there is no doubt in my mind that 
some governments would like to seek to control the Internet in 
any way that they can, not only domestically but 
internationally, because it will further their interests.
    Our advocacy with those governments has been ongoing, needs 
to be ongoing. It needs to be strengthened, of course, as well. 
But I don't come with any illusions that it is merely a 
question of if we can come up with a slightly better 
formulation of our arguments or if we start a few months 
earlier, that those governments will change their mind.
    Having said that, there is a large number of governments 
who can be directly influenced by the correct arguments. We 
have heard from the Kenyans today, as well. I would note that 
there are about 193 countries that are members of the ITU. As 
we have heard, 89 of those countries signed the treaty in 
Dubai, but that means almost half of the countries, maybe more 
than half the countries, have either not signed or did not 
attend that conference. As a result, there is lots of 
opportunities for our effective advocacy.
    Mr. Smith. Thank you, Mr. Ambassador.
    You know, in 2006, as you know better than anyone, I 
chaired the first hearing of a series of hearings on the misuse 
of the Internet by human rights violators, particularly gross 
violators like the People's Republic of China. Representatives 
from Google, Microsoft, Cisco, and Yahoo! testified, and they 
told us how they were compelled to conform to surveillance and 
censorship policies placed upon them by Beijing, making them 
unwittingly a part of the ongoing crackdown of indigenous human 
rights activists.
    This also goes on in Vietnam, it goes on in Belarus, it 
goes on in Iran, as we all know. Today the Laogai is filled to 
overflowing with human rights activists, put there precisely 
because of the Internet and because they were surveilled and 
caught by the government.
    Pervasive censorship is not just about information 
exclusion, but it is about redirecting netizens to government-
favored information and Web sites. And that is the rule of the 
way it happens in China today.
    My question is, exactly what did China and other Internet-
restricting countries gain in Dubai? Are their policies 
reinforced? Are there any mitigating aspects to this treaty? 
Will it have any kind of curtailing impact on the great China 
firewall or not? And how will this treaty be enforced on the 89 
that have signed on to it?
    Mr. Feld. Let me take a first shot at that, cautioning that 
I am not an expert in international law.
    I will say that the last-minute debate with regard to what 
I can only describe as the usurpation of human rights language 
by countries for the purposes of subsuming that language to 
their own end was profoundly shocking. I think it reverberated 
to our advantage, ultimately, in the political sphere by making 
clear to many in global civil society what the stakes are here.
    Particularly as China articulated a theory in which 
countries, rather than individuals, would be the ministers of 
the U.N. fundamental right of free expression, could not have 
been more calculated to send chills down the spine of every 
organization that had foreseen precisely this effort to extend 
censorship regimes through the ITRs.
    That said, I must add one note of caution which we need to 
take account of in our diplomacy, which was when I asked a 
fellow activist from the Africa bloc why the African countries 
were supporting this, she said, We have families who cannot 
call home to Sudan because telephone cards will not work 
because of the sanctions.
    And so while we fully support the sanctions and we believe 
in protecting human rights, we also need to be aware in our 
diplomacy as we move forward that many countries may choose to 
support some of these not because they love censorship but 
because they have alternative concerns. And as Commissioner 
McDowell has said repeatedly and appropriately, we need to be 
showing that we are sensitive and engaged on those concerns 
while continuing to isolate those who would violate human 
rights.
    Mr. Gross. I would just add that, in answer to your 
question, time will tell. I take the importance of how the 
language is interpreted. It doesn't go into effect until 
January of 2015. The WCIT treaty will be incredibly important.
    I hope and expect that the ITU leadership and others will 
continue to advance the view that the language of the WCIT 
treaty, the new ITRs, revised ITRs, are telecoms-related, not 
Internet-related. And so it will take long and hard work by the 
U.S. and others to ensure that that promise continues to be 
kept.
    Mr. McDowell. If I could add very quickly. I know we are 
over time. I apologize.
    The authoritarian regimes have crossed a regulatory 
Rubicon, and that is their biggest victory from Dubai. So from 
now on--remember, at the outset I said these regimes are 
patient and persistent incrementalists. So they won't stop at 
this; they will want more.
    And they will also try to argue that current treaty 
language says more than what it says on its face, because that 
is what they did with the 1988 treaty language, which clearly 
did not contemplate giving the ITU control over the Internet. 
But even ITU leadership and ITU staff in a PowerPoint 
presentation that I have right here, which is on is the ITU Web 
site, claimed that the 1988 treaty language incorporated the 
Internet. And that is still up on their Web site; I hope it 
remains there. And so I think we need to keep that in mind.
    So what they got, their big victory, they were able to 
create a new paradigm and destroy the old paradigm.
    Mr. Latta. Thank you.
    The chair now recognizes the gentleman from California, Mr. 
Sherman, for 5 minutes.
    Mr. Sherman. I would like to pick up on that concept, and 
that is, we have got a lot of language adopted from 1865 to 
1988, and one can imagine that the opponents of freedom will 
try to apply that to the Internet.
    In addition, the Internet is broadening its scope to 
include voice, some would say telephony. As the Internet, 
Ambassador Gross, includes voice, does that bring it under the 
language adopted in 1988 and prior?
    Mr. Gross. The fortunate answer for us is that the 1988 
treaty that resulted in the ITRs dealt with issues other than 
what we are talking about. That is, it dealt with issues about 
how state-controlled enterprises, in essence, exchanged traffic 
in ways--financial arrangements and related arrangements.
    Mr. Sherman. Yes, but my focus is not just on the 1988 
language. From 1865 to 1988, people were writing treaties about 
telegraph. Then they started including telephony. And did they 
stumble into language that would either apply to the Internet 
as I use it today or that would apply to an Internet that is 
even more used for telephony than what we see today?
    And I know Mr. Feld will want to respond, as well, but 
first Ambassador Gross.
    Mr. Gross. As I mentioned, fortunately, that which was done 
by the ITU in terms of treaty language, binding treaty 
language, does not go to the sorts of things, I think, that 
would concern us with regard to Internet. And I don't at all 
suggest that what it does applies retroactively to the 
Internet. But, rather, it really dealt with the relationship 
between states and how those transactions took place with 
regard to the networks.
    In addition, it is important, I think, to recognize that 
the way in which the Internet has evolved has resulted in many 
of us now looking afresh at how these things should be done. 
And, importantly, in the 1988 treaty, what the ITU did was very 
important; it allowed for the private sector and others to make 
their own commercial arrangements. That part applies 
regardless.
    Mr. Sherman. Mr. Feld, I do want to pick up on your idea 
that the U.S., perhaps the private sector as well as 
government, should be chipping in a bit to help those from 
poorer countries participate in the multistakeholder forums. 
And I would note that we provide $11 million a year, which 
seems a rather modest amount, to the ITU itself. And it 
wouldn't be such a bad idea if both businesses and the 
government would help strengthen the multistakeholder approach.
    So thank you for those statements. And now please comment 
on the question I asked Ambassador Gross.
    Mr. Feld. To focus on the question just asked, I think what 
is important here is to recognize that even under the 
traditional ITU approach to telecommunications, it never 
approached questions of content, it never attempted to extend 
the controls of one country into another country, which are 
precisely the issues that are of concern here.
    Nothing in the ITRs ever would have suggested, for example, 
that countries could regulate prank phone calls or unwanted 
telephone solicitations, but somehow countries persuaded 
themselves that it was suitable because of the Internet to try 
to regulate spam.
    And what we need to be careful of here is to not make this 
a telecom/nontelecom distinction, but to much more focus on the 
appropriate role of the ITU as tied to traditional technical 
coordination.
    Mr. Sherman. So we should be saying, No content regulation, 
whether it is text or voice, whether it is over old telephony 
wires or new Internet technology; the ITU is there to provide 
for international payment recognition, not content regulation.
    I know others want to respond to this, but I want to add 
one other question. Our colleague, Congresswoman Bass, pointed 
out, as we all know, that the Internet is sometimes used by bad 
people for bad reasons. And she gave a great example, a 
terrible example, and that is those engaged in human 
trafficking.
    How does the multistakeholder approach respond to those who 
say, We need the ITU to regulate; otherwise, and if you don't 
believe in that, then you must be helping human traffickers?
    Mr. McDowell?
    Mr. McDowell. Thank you for the opportunity.
    So for the first part, you know, voice is now an 
application. It is all part of a slurry of ones and zeroes. So 
as we just saw from our friend from Kenya, was that voice, was 
that a voice communication? Was that video? Was it data? The 
answer is, it was all of the above; it was all a slurry of ones 
and zeroes.
    Packet-switch networks, the networks of the Internet, 
operate very differently and have a different architecture 
completely from the traditional copper voice analog networks of 
yore that the old ITU rules were set up for. That is an 
important distinction, actually. So we are talking about new 
networks and old rules, and we need to avoid blurring the two 
or putting the old rules on the new networks.
    And regarding the other issues, it could be trafficking, it 
could be intellectual property, it could be a lot of other 
things. There are still national laws, there is still national 
sovereignty. And what growing the jurisdiction of the ITU or 
maybe another U.N. organization yet to be born undermines is 
national sovereignty in these areas. And there are other 
treaties that can be put into play for trafficking or 
intellectual property and all the rest, with the Internet as a 
tool, perhaps, in those crimes. But we need to make sure that 
we are not subjecting to the Internet to international control.
    Mr. Sherman. I will just ask a question for the record 
because the chairman has been very generous with the time. And 
that is, should we have done more to tell countries that, to 
use the language here in Congress, we are scoring the vote? 
That is to say, that those making other important U.S. foreign 
policy decisions are taking note of now countries vote at the 
ITU? Is that undue pressure or a demonstration of how important 
Internet freedom is?
    And I will ask you to respond in writing to that.
    Mr. Latta. Thank you.
    The chair recognizes the gentleman from Texas, Chairman 
Poe, for 5 minutes.
    Mr. Poe. You hesitated on that ``gentleman'' part.
    Mr. Latta. You are a gentleman.
    Mr. Poe. Thank you once again for being here.
    It seems to me that there is one thing that we do all agree 
on: that the Internet, as great as it is, is a tool for 
freedom. It promotes freedom of speech, and it promotes 
economic and political freedom.
    Freedom is kind of something we do in this country, whether 
it is here or somewhere else. And I would hope that, as we move 
forward, we would continue as a body to bipartisanly promote 
that concept that we believe in as a nation, even though it 
may, as Commissioner McDowell said, shock a few countries that 
we all agree on this one issue. And so I think that is 
important and that is why this hearing is important. And what 
we do as a body, Congress, does make a difference, and 
especially other people notice what we do.
    But that is, to me, the underlying issue, it is about 
freedom, liberty. It is not corny, it is not old-fashioned; it 
is just what we do in this country.
    One thing that concerns me is the ITU's kind of secret 
plan. They meet in secret. They don't reveal to the public what 
they do behind closed doors, as Mr. Feld has pointed out. 
Transcripts sometimes aren't available. Other things that take 
place, no one knows what occurred.
    I don't know if you want to weigh in on that as whether we 
can do something about that as a procedure matter or not.
    It seems to me, also, that on this issue we have those that 
are determined to have control, government control, ITU 
control, over the Internet. I mean, their motives are obvious. 
Russia, Iran, China, Saudi Arabia, UAE--those people will never 
be converted to our philosophy, I don't think. Then on the 
other side we have the United States, Sweden, Great Britain, 
Kenya, and some other countries.
    So I think most countries are still in the middle, from 
what you say, that most countries are still trying to find out 
where they stand on this issue. And that should be our goal, is 
to promote that concept--which is in their best interest, not 
necessarily ours, but their best interest as well--
diplomatically, however we can. And I know that I couldn't do 
that. I have been called a lot of things, but I have never been 
called a diplomat. And I am glad that you are in that 
assignment, that you want to do that.
    So my question to you is, should there be, first, on one 
end--and I am just asking for your opinion--any consequences 
for countries that seem to want government control of the 
Internet, or not? And, second, a little more specific: how can 
we be prepared to communicate better to these--the vast 
majority of countries, as Ambassador Gross has mentioned, that 
still haven't made up their mind?
    So three questions: ITU procedure; any consequences; and 
what can we specifically do. I will let anybody who wants to 
answer, if you do.
    Ms. Wentworth. Thank you for the question. It is an 
important question, and it goes to, I think, some of the other 
comments earlier.
    First, the ITU does need to become more transparent. And, 
hopefully, the pressure and the attention that the world put on 
the ITU over the last 18 months will make a deep impression 
going forward that processes need to be more open, more 
inclusive of civil society, more reflective of a broader 
community, and not a closed-door intergovernmental place where 
work gets done, which I think promotes this feeling that it is 
a secret plan.
    The question about what to do about the countries, as you 
said, in the middle is a really important one. Organizations 
and groups like the Internet Governance Forum are incredibly 
important.
    It is also really important to build the technical capacity 
in these countries. And by ``technical capacity,'' that could 
mean the actual technical infrastructure, but also the human 
capacity, the technical people in this country who can build 
the technology, sustain the technology, and work with their 
governments in forums like the ITU to defend the technology and 
to defend the model.
    As we see more engineers from developing countries involved 
in the technical community, involved in growing the Internet in 
their countries, we then see them on national delegations, like 
the Kenyan delegation, like the Philippine delegation, across a 
number of delegations that had Internet experts on that 
delegation helping to inform their governments about what the 
consequences of these treaty proposals were.
    So it wasn't just a matter of us saying to them, this is 
wrong or this is bad, they actually had homegrown, national 
citizens in their countries who truly believe in the model 
because they are building it in their countries.
    And I think that it is important to really push and to 
support that kind of technical capacity-building, both at the 
architectural level and at the human level, so that you build a 
sense of buy-in within these countries that is sustainable over 
the long term.
    Mr. Feld. Yes, I would like to just add, one, with regard 
to ITU procedure, the United States, as a member, has the 
discretion when to disclose official documents and to whom it 
chooses to designate to have access. And to the extent that the 
members of the member states of the ITU do not agree to open 
this in transparency, the United States and other countries 
that believe in that principle can unilaterally say, well, we 
plan to make copies of these official documents available. And 
if the ITU insists on operating through official documents, 
then that is going to be the mechanism through which the rest 
of the world gets to judge the proposals that are being put out 
there. And the United States can drag this as much into the 
light as possible.
    With regard to engagement, I think it is important for us 
to continue to walk the walk. And that includes not just at the 
ITU. I will point out that I and my colleagues were thrilled 
and delighted with the reception we had at State for the 
delegation with regard to Dubai. I would say we have gotten a 
somewhat different reaction when we have talked to USTR with 
regard to negotiations, for example, in the Trans-Pacific 
Partnership. It plays into the hands of our opponents if we are 
totally about openness and civil society and engagement in the 
ITU context and not in the Trans-Pacific Partnership and other 
trade contexts.
    And the fact that European activists and some in the 
European Parliament were referring to the ITU as ``ACTA by the 
backdoor'' shows us, I think, unfortunately how far we have 
fallen on the trade front. And it would be enormously helpful 
for us to walk the walk consistently with regard to engagement 
with civil society.
    Mr. Poe. I am out of time. Ambassador Gross, if you don't 
mind just responding in writing.
    And also if the four of you, if you wish to respond on the 
issue of consequences in writing.
    And I will yield back my time.
    Mr. Latta. I thank the gentleman.
    And the chair will recognize himself for 5 minutes.
    And if I could--oh, I am sorry. I got ahead of myself. I am 
sorry. The gentleman from California is recognized for 5 
minutes, Mr. Lowenthal. Sorry about that.
    Mr. Lowenthal. That is all right.
    Mr. Latta. You pass? All right, thank you.
    Going back, again, I will recognize myself for 5 minutes.
    And if I could, Commissioner McDowell--and for all of our 
panelists, thanks again for being here. It has been a very, 
very informative hearing this morning.
    And if I could go back to your testimony, especially your 
five fundamental points that you were bringing up, and 
especially your point number one, stating that ``proponents of 
multilateral intergovernmental control of the Internet are 
patient and persistent incrementalists who will never relent 
until their ends are achieved,'' which you started on. And I 
think you were talking about crossing the Rubicon.
    And the three points, if you could maybe touch on briefly 
again, especially in light of what has been going on, 
especially the cyber attacks that have occurred on businesses 
and, of course, on other government agencies in this country 
from abroad.
    But could you comment on especially your bullet point 
stating that ``subjecting cybersecurity and data privacy to 
international control, including the creation of an 
international registry of Internet addresses that could track 
every Internet-connected device in the world''? If you could 
start with that point, especially in light of the cyber 
attacks.
    Mr. McDowell. This sounds like fiction, but I in my written 
testimony have it heavily cited so that people can see those 
proposals, and these are very real. They can read it in black 
and white. So this is an outstanding question, as to what is 
the future state of international regulation of cybersecurity.
    So if China, in particular, is pushing hard for something 
along these lines, one has to ask why. And is that to use it as 
a shield, as a way of having other countries live by a set of 
rules which they then can break? That is a legitimate question 
to ask with any treaty negotiation but especially this one. So 
is it a sword and a shield all at the same time?
    So this is something that I think these patient and 
persistent incrementalists will be back for more, to have more 
multilateral control over what probably should be something 
conducted by nations in their own national interest.
    Mr. Latta. Let me ask, on your last bullet point under that 
heading, ``centralizing under international regulation Internet 
content under the guise of controlling 'congestion' or other 
false pretexts, and many more,'' if you want to expound on 
that.
    Mr. McDowell. Right. So if we look at the provisions on 
spam that came out of Dubai, there is a legitimate argument to 
make, which others on the panel have made, that this enables 
governments across the globe to look at the details of Internet 
communications. It actually gives them cover because many of 
them, of course, do this already, China being the best example. 
But this gives them international political cover to do this 
and starts to make it, through international treaty, the 
worldwide norm for governments to do these types of things.
    And back, also, to the registry point of the first part of 
your question, that is ultimately where this can lead. If these 
proposals will ultimately result in having an international 
registry for IP addresses, each device--your mobile phone, your 
tablet, your computer--has an IP device. And in the future, as 
we grow the Internet of things, you know, your refrigerator, 
goods on cargo vessels, all the rest, will have their own 
addresses. And if there is an international registry of these, 
that enables the tracking.
    It sounds like black-helicopter conspiracy theories, but so 
did my op-ed a year ago in The Wall Street Journal, and it 
became a reality. So this is very real and is a very real 
threat, and it could be international law before we know it.
    Mr. Latta. And then finally, on your bullet point dealing 
on peering, do you want to talk a little bit about that?
    Mr. McDowell. So peering, just in a nutshell, these are the 
long-haul pipes, the Internet backbone that carry large volumes 
of traffic. And from the inception, there have been contracts 
between the builders of these pipes to swap traffic as they see 
fit. And it has been mainly a swapping arrangement without 
compensation.
    But if we go in the direction of there being some sort of 
international economic regulation of peering, that is really 
going to start to dry up investment and squelch innovation in 
this regard. It will upend the economics of the Internet as we 
know it and cause a tremendous amount of disruption and 
increase costs, ultimately.
    And these costs will be borne by every Internet consumer in 
the world. So a lot of things that are free on the Internet--
for instance, MIT and Harvard recently announcing that they 
were going to have free classes offered on the Internet. Well, 
those free classes all of a sudden incur a cost because the 
costs of these technologies start to rise dramatically.
    And, at a minimum, it creates a tremendous amount of 
uncertainty, not knowing where these decisions are going to go. 
These decisions would be politicized inside these sort of 
sclerotic international bureaucracies by appointed, not 
elected, people. And we don't know where they are going to go. 
And that uncertainty really starts to dampen investment and 
innovation.
    Mr. Latta. Thank you.
    And the chair at this time recognizes the gentleman from 
Missouri, Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And thank you all for being here today. And it was 
especially interesting to have the doctor from Kenya testify 
here at the hearing today over the Internet that we are 
discussing. So that was pretty nice, being able to hear from 
him, and glad no one decided to block the content there.
    And I will disagree with my friend from Texas, Mr. Poe. He 
says that most countries will never be converted to our way of 
thinking, and I think that, hopefully, I believe they will. I 
think the citizenry of these countries, from what I have seen, 
my travels around to different areas, that everyone has an 
iPhone, everyone has an iPad. There are ways to get information 
to go around some of this blocking, whether they are trying to 
block The New York Times from coming into their country or 
whatever it is.
    So I, for one--I have always been an optimist. I was a 
salesman before I got here. So I am hopeful that these other 
countries will come around to our way of thinking. And I think 
that the citizens of those countries will be the ones leading 
the charge, probably not us here in Congress.
    But, Commissioner McDowell, you state in your testimony, in 
2011, then-Russian Prime Minister Vladimir Putin declared that 
his goal and that of his allies was to establish international 
control over the Internet through the ITU. In your position, 
what can you suggest as policymakers here to combat this 
domestically?
    Mr. McDowell. To combat this domestically?
    Mr. Long. Yes.
    Mr. McDowell. So I think we have a tremendous opportunity 
here. Congress has a huge role to play, as we have all agreed 
earlier that the unanimous bipartisan resolution coming out of 
both Houses of Congress last year was very powerful. So I think 
amplifying that as best you can.
    And I subscribe to the position that I don't tell Congress 
what to do, you tell me what to do. But you are asking me, so I 
think codifying----
    Mr. Long. We tell a lot of people what do, but they never 
listen.
    Mr. McDowell. So codifying this as U.S. law I think is very 
helpful. But I think that helps fuel the conversation 
internationally.
    And you are absolutely right, the citizenry of these 
countries are crying out for an unfettered Internet. And as we 
see the information spread--and, you know, there is more 
computing power in the hands of pineapple farmers from Ghana 
than we had for the entire Apollo program that put people on 
the moon. It is in their hands now, and that is incredibly 
powerful.
    It is threatening to a lot of authoritarian regimes, but it 
is truly transformational for the citizenry around the world, 
some of whom--you know, one of the biggest challenges in the 
world is just finding drinkable water. And there are wireless 
devices that have applications that allow them to do just that, 
or to find the proper market price for their crops that they 
sell in the market. It is just absolutely transformational.
    So you are absolutely right. As these technologies are 
allowed to proliferate and if information is allowed to flow 
unimpeded, it will have an effect on their governments 
ultimately.
    Mr. Long. So you, like me, are a hands-off-the-Internet 
guy.
    Mr. McDowell. Yes, sir, I am.
    Mr. Long. OK.
    Yes, I think that it is very telling and very interesting 
to note that our Embassy in Beijing a few years ago hung an air 
pollution monitor, and we were putting out the air pollution 
number in Beijing, which did not thrill the Chinese. And they 
took us to task for it and said we had no business doing that. 
And it went from that point to now they have more--we only had 
one place to hang one, but they have several monitors. And 
sometimes their daily pollution index will show a number higher 
than ours does from the Embassy.
    And the other day, I had a Chinese general pull out his 
cell phone proudly out of his pocket, his iPhone, and hold it 
up. And through his interpreter, he told our delegation that he 
had the American Embassy app for the air pollution index in 
Beijing, and he turned around and showed it to us very proudly.
    So I think things are changing. And like I said, I am an 
optimist, hopeful. And thank you all again for your testimony.
    And I yield back.
    Mr. Latta. The gentleman yields back.
    And I believe the gentleman was our last Member to ask 
questions. And the record will remain open for 10 business days 
for Members to submit questions for the record.
    And if there is no further business to come, this joint 
meeting of the subcommittees--I again want to thank all of our 
witnesses for being here today. You have done an excellent job. 
We appreciate it and appreciate your time.
    And, at this time, we will stand adjourned.
    [Whereupon, at 12:27 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] T9530.004
    
    [GRAPHIC] [TIFF OMITTED] T9530.005
    
    [GRAPHIC] [TIFF OMITTED] T9530.006
    
    [GRAPHIC] [TIFF OMITTED] T9530.007
    
    [GRAPHIC] [TIFF OMITTED] T9530.008
    
    [GRAPHIC] [TIFF OMITTED] T9530.009
    
    [GRAPHIC] [TIFF OMITTED] T9530.010
    
    [GRAPHIC] [TIFF OMITTED] T9530.011
    
    [GRAPHIC] [TIFF OMITTED] T9530.012
    
    [GRAPHIC] [TIFF OMITTED] T9530.071
    
    [GRAPHIC] [TIFF OMITTED] T9530.072
    
    [GRAPHIC] [TIFF OMITTED] T9530.073
    
    [GRAPHIC] [TIFF OMITTED] T9530.074
    
    [GRAPHIC] [TIFF OMITTED] T9530.075
    
    [GRAPHIC] [TIFF OMITTED] T9530.076
    
    [GRAPHIC] [TIFF OMITTED] T9530.077
    
    [GRAPHIC] [TIFF OMITTED] T9530.078
    
    [GRAPHIC] [TIFF OMITTED] T9530.079
    
    [GRAPHIC] [TIFF OMITTED] T9530.080
    
    [GRAPHIC] [TIFF OMITTED] T9530.081
    
    [GRAPHIC] [TIFF OMITTED] T9530.082
    
    [GRAPHIC] [TIFF OMITTED] T9530.083
    
    [GRAPHIC] [TIFF OMITTED] T9530.084
    
    [GRAPHIC] [TIFF OMITTED] T9530.085
    
    [GRAPHIC] [TIFF OMITTED] T9530.086
    
    [GRAPHIC] [TIFF OMITTED] T9530.087
    
    [GRAPHIC] [TIFF OMITTED] T9530.088
    
    [GRAPHIC] [TIFF OMITTED] T9530.089
    
    [GRAPHIC] [TIFF OMITTED] T9530.090
    
    [GRAPHIC] [TIFF OMITTED] T9530.091
    
    [GRAPHIC] [TIFF OMITTED] T9530.092
    
    [GRAPHIC] [TIFF OMITTED] T9530.093
    
    [GRAPHIC] [TIFF OMITTED] T9530.094
    
    [GRAPHIC] [TIFF OMITTED] T9530.095
    
    [GRAPHIC] [TIFF OMITTED] T9530.096
    

                                 <all>

</pre></body></html>
